<html>
<title> - BOUNDARY CONFLICTS IN MISSOURI; BEND PINE NURSERY LAND CONVEYANCE ACT; RIO GRANDE OUTSTANDING NATURAL AREA; ACQUISITION OF PROPERTY IN UTAH; AND LANDS IN MENDOCINO NATIONAL FOREST</title>
<body><pre>[Senate Hearing 108-321]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-321

BOUNDARY CONFLICTS IN MISSOURI; BEND PINE NURSERY LAND CONVEYANCE ACT; 
 RIO GRANDE OUTSTANDING NATURAL AREA; ACQUISITION OF PROPERTY IN UTAH; 
                 AND LANDS IN MENDOCINO NATIONAL FOREST

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 1167                               S. 1848

                           S. 1209                               H.R. 708

                           S. 1467



                                     
                               __________

                           NOVEMBER 18, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

91-834              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairmaa

GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                David Brooks, Democratic Senior Counsel
                    Kira Finkler, Democratic Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennett, Hon. Robert F., U.S. Senator from Utah..................     4
Bobicki, Charlotte, County Commissioner, Alamosa County, CO......    25
Bond, Hon. Christopher S., U.S. Senator from Missouri............     1
Booth Doyle, Kate, San Luis Valley Ecosystem Council, Colorado...    28
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     7
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Hughes, Jim, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    14
Talent, Hon. James M., U.S. Senator from Missouri................     9
Thompson, Tom, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    10
Wyden, Hon. Ron, U.S. Senator from Oregon........................     8

                                APPENDIX

Additional material submitted for the record.....................    35

 
BOUNDARY CONFLICTS IN MISSOURI; BEND PINE NURSERY LAND CONVEYANCE ACT; 
 RIO GRANDE OUTSTANDING NATURAL AREA; ACQUISITION OF PROPERTY IN UTAH; 
                 AND LANDS IN MENDOCINO NATIONAL FOREST

                              ----------                              


                       TUESDAY, NOVEMBER 18, 2003

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. The Subcommittee on Public Lands and Forest 
will be convened. My colleague Ben Nighthorse Campbell and I 
have opening statements.
    But I understand, Senator Bond, you are on a bit of a tight 
schedule. So we will withhold and take your testimony first, 
and then you are certainly welcome to leave if you wish before 
we convene our panelists. So with that, please proceed.

            STATEMENT OF HON. CHRISTOPHER S. BOND, 
                   U.S. SENATOR FROM MISSOURI

    Senator Bond. Thank you, Mr. Chairman. And I very much 
appreciate the opportunity to testify. I appreciate your 
holding the hearing for this bill that Senator Talent, a member 
of this committee, and I have introduced. Let me try to 
summarize it for you.
    This is the Mark Twain National Forest Reserve and Boundary 
Readjustment Act introduced on June 2 of this year. It deals 
with a very messy and unfortunate property line dispute in 
Barry and Stone Counties, Missouri, next to the Cassville 
District of the Mark Twain National Forest and to Table Rock 
Lake.
    About in the early 1960's and 1970's, the Corps of 
Engineers, who were private surveyors, went around and tried to 
lay out the boundary lines in that area, using--they found that 
the original corner monuments that were established by the 
General Land Office had disappeared. So they used existing de 
facto land markers in the vicinity of the original GLO 
monuments. But as you can imagine, for 30 years, the landowners 
in Barry and Stone Counties bought and sold land in good faith 
based on these surveys and on what the Federal Government told 
them were the property lines.
    Well, several years ago, the Forest Service performed new 
land surveys using new surveying technology, and now claims 
that the boundary lines conflict with--there are different 
boundary lines, and the Forest Service said the Corps' surveys 
are incorrect and they are all in the wrong places. And now, 
the Forest Service is telling private landowners that their 
land or some of their land belongs to the Federal Government 
and they are going to have to reimburse the Forest Service.
    Well, you might guess that that has caused a bit of 
consternation, to put it gently. I have, just as one example, a 
statement I would ask to be included in the record after my 
testimony from Mr. Don Ayers, a former active realtor in the 
area and one who is a victim of the boundary line dispute.
    Senator Craig. Without objection, that will be included.
    Senator Bond. He said he was in a position to place 
cautionary contingencies in every listing for sale in the area, 
and it has made it extremely difficult to sell property, and 
listings have been withdrawn because of the uncertainty. But 
now he is a property owner who has been told by the Forest 
Service that his property encroaches on Federal land, and he 
cannot sell the property. It has been on the market for 18 
months, and he is totally tied up on this.
    I really think this is unfair and devoid of any common 
sense. My staff and I have worked and have asked the Forest 
Service and the Corps to work together, but they cannot agree. 
In the meantime, the people who live there are continuing to be 
deprived of the use and the ability to sell their property.
    And that is why we have concluded that legislation is the 
only way to solve the boundary of property. It authorizes the 
Secretary of Agriculture to convey without consideration title 
to land on which there is a boundary conflict with adjoining 
Federal land if the landowner can demonstrate a claim of 
ownership because they relied on a land survey performed or 
approved by the Federal Government previously.
    Obviously, the local governments in the area strongly 
support it. A similar version of this legislation, sponsored by 
Representative Roy Blunt of southwest Missouri who has this in 
his district, passed the House last night. And I would ask you, 
out of a sense of fairness to the beleaguered property owners 
who have been sliced and diced by the Federal Government, to 
pass this legislation.
    Thank you.
    [The prepared statement of Senator Bond follows:]

            Prepared Statement of Hon. Christopher S. Bond, 
                       U.S. Senator From Missouri

    Mr Chairman, I want to thank you for allowing me to testify before 
this committee today regarding legislation I have introduced to resolve 
a very unfortunate situation that has developed in Southwestern 
Missouri. I also want to thank my colleague from Missouri and member of 
this committee, Senator Jim Talent, who is a co-sponsor of this 
important legislation.
    On June 2, 2003, I introduced S. 1167, the Mark Twain National 
Forest Resurvey and Boundary Readjustment Act of 2003, which would 
resolve the unnecessary property line disputes in Southwestern Missouri 
that have resulted from conflicting federal government land surveys 
performed by the U.S. Army Corps of Engineers (Corps) and the United 
States Forest Service (USFS), respectively. The land involving these 
disputed property lines is located in the vicinity of the Cassville 
District of the Mark Twain National Forest in Barry and Stone Counties 
adjacent to Table Rock Lake.
    In order to understand this legislation, some historical background 
is necessary. During the late 1960's and early 70's, the U.S. Army 
Corps of Engineers, through various private land surveyors, surveyed 
this area around Table Rock Lake. In its surveys, the Corps found that 
most of the original ``corner monuments'' or boundary lines laid out by 
the U.S. General Land Office (GLO) in its original surveys performed in 
the 1840's were either lost, stolen or had eroded over the years.
    Instead of the original GLO monuments, Corps surveyors used 
existing de-facto land markers in the vicinity of the original GLO 
monuments as the basis for its new surveys. Prior to the Corps surveys, 
these de-facto monuments were recognized by local surveyors as the 
legitimate boundary markers and were used in survey after survey over 
the decades.
    For almost 30 years, private landowners in Barry and Stone Counties 
bought and sold their land in good faith based on the surveys performed 
by the Corps in the 60's and 70's. However, several years ago, the USFS 
performed new land surveys using surveying technology that had only 
recently become available. As a result of these new surveys, the USFS 
now claims that the boundary lines in its surveys conflict with the 
boundary lines established in the previous corps surveys. In addition 
to this, the USFS has announced that the Corps surveys are incorrect 
and that property lines all over this area are in the wrong place.
    Because of these new revelations, many private property owners in 
the vicinity of the Mark Twain National Forest, who bought and paid for 
their land in good faith based on a previous federal government survey, 
are now being told that they have encroached on USFS land.
    The USFS has even begun telling these private landowners that their 
land now belongs to the federal government, and that they will have to 
reimburse the USFS for the federal land that the landowners now own and 
occupy. Naturally, these actions have produced chaos, confusion and 
anger among landowners in these two counties.
    For example, Mr. Don Ayres of Shell Knob, MO states, ``As a former 
active realtor in this area, I was in a position to place such a 
cautionary contingency in every listing for sale of property with a 
similar problem and there were many. It is very difficult to sell a 
piece of property when the potential buyer is looking at a dispute with 
a large federal agency (USFS). In at least one instance I know of, a 
listing was withdrawn because of the uncertainty of the dispute.''
    Not only is Mr. Ayres a realtor who has had his business impacted 
by these property disputes, but he is also a property owner who has 
been informed by the USFS that his property now ``encroaches'' on 
federal land. Like other property owners in the area, Mr. Ayres has had 
difficulty selling his property because of the aforementioned 
cautionary contingency required under disclosure. His property has been 
on the market for about 18 months, and he has yet to receive a contract 
to purchase it from a potential buyer. I would like permission to 
submit a copy of Mr. Ayres' statement regarding the problems that have 
resulted from these disputes for the committee record.
    Needless to say, it is inherently unfair and absolutely devoid of 
any common sense to expect private landowners to compensate the federal 
government for land that they have already purchased simply because the 
government has changed its collective mind about where federal property 
begins and ends.
    Over the past two years, I have repeatedly asked the USFS and the 
Army Corps of Engineers to work together to find a solution that would 
resolve this problem. Unfortunately, after two years of debate and 
disagreement, the Corps of Engineers and the USFS have been unable to 
agree on a resolution of this problem. In the meantime, the lives of 
many of these Missouri residents continue to be disrupted.
    Therefore Mr. Chairman, I have concluded that federal legislation 
represents the only feasible solution to this boundary problem. This 
legislation authorizes the Secretary of the Agriculture to convey, 
without consideration, title to land in which there is a boundary 
conflict (with adjoining federal land) to private landowners, who can 
demonstrate a claim of ownership because they relied on a subsequent 
land survey performed or approved by the federal government.
    This legislation is supported by the City of Cassville, the 
Presiding Commissioner of Barry County and the countless number of 
property owners who have been victimized by these unnecessary boundary 
disputes.
    A very similar version of this legislation, H.R. 2304, sponsored by 
Rep. Roy Blunt passed the House of Representatives last night.
    In closing, I urge you to pass this important legislation out of 
committee and send it to the Senate floor for a vote.
    Mr. Chairman, members of the committee, once again, I would like to 
thank you for an opportunity to testify on behalf of S. 1167

    Senator Craig. Well, Mr. Chairman, thank you very much for 
that testimony. All additions will become a part of the record. 
And we thank you for that.
    Senator Bond. Thank you very much, Mr. Chairman.
    Senator Craig. Thank you.
    Before I turn to my other colleagues, we will go ahead with 
our opening statements. Senator Talent, we will come to you on 
this issue. We have just heard from Senator Bond in relation to 
S. 1167.
    Senator Bennett will not be here this afternoon, so I will 
put his testimony in the record as it relates to S. 1209, a 
land acquisition bill that he has introduced.
    [The prepared statement of Senator Bennett follows:]

  Prepared Statement of Hon. Robert F. Bennett, U.S. Senator From Utah

    Thank you, Mr. Chairman, for this opportunity to present testimony 
to the subcommittee on S. 1209. The bill would provide for the 
acquisition of property in Washington County, Utah, for the 
implementation of a desert tortoise habitat conservation plan. I come 
to speak in favor of this solution that would bring to a close the 
federal acquisition of privately held land, located within the 
federally designated desert tortoise reserve in Washington County, UT. 
This is an acquisition that, in my opinion, is long overdue. Mr. 
Chairman, I would also like to ask consent that testimony for the 
Washington County Commission, who are fully supportive of this 
legislation, be submitted for the record.
    As I'm sure many of you are aware, this is not the first time 
legislation has been introduced in an attempt to resolve this issue. In 
July 2000, I introduced S. 2873, which was referred to and eventually 
reported favorably by the Committee on Energy and Natural Resources. In 
addition, similar legislation was twice approved by the House, in both 
the 106th and 107th Congress. Nevertheless, we have so far been unable 
to resolve this issue in the full Senate.
    For nearly a decade, the private property addressed by this bill 
has been under federal control during which time the federal government 
has been enjoying the environmental benefits of the property without 
remitting any sort of compensation to the landowner. The time has 
finally come to resolve this unfair arrangement.
    First, let me begin with an account of the background leading up to 
this legislation.
    In March 1991, the desert tortoise was listed as an endangered 
species under the Endangered Species Act. Researchers, both 
governmental and environmental, determined that the land immediately 
north of St. George, UT, was prime desert tortoise habitat. 
Consequently, in February 1996, nearly five years after the listing, 
the United States Fish and Wildlife Service (USFWS) issued Washington 
County a section 10 permit under the Endangered Species Act which paved 
the way for the adoption of a habitat conservation plan (HCP) and an 
implementation agreement. Under the plan and agreement, the Bureau of 
Land Management (BLM) committed to acquire all private lands in the 
designated habitat area for the formation of the Red Cliffs Reserve for 
the protection of the desert tortoise.
    One of the private land owners within the reserve is Environmental 
Land Technology, Limited (ELT) which had, for purposes of residential 
and recreational development, begun acquiring lands from the State of 
Utah in 1981--ten years prior to the listing of the species. Also, in 
the years preceding the listing of the desert tortoise and the adoption 
of the HCP, ELT completed master planning of the property including 
appraisals, cost estimates, engineering studies, site plans, surveys, 
utility layouts, and right-of-way negotiations. They staked out golf 
courses, and obtained water rights for the development of this land.
    Prior to the adoption of the HCP, it was not clear which lands the 
federal and local governments would set aside for the desert tortoise, 
although it was assumed that there were sufficient surrounding federal 
lands to provide adequate habitat. However, when the HCP was adopted in 
1996, the decision was made to include ELT's lands within the 
boundaries of the reserve primarily because they contained high 
concentrations of tortoises. The tortoise population on ELT land also 
appeared to be one, if not the only, population without an upper 
respiratory disease that afflicted virtually all of the other 
populations. As a consequence of the inclusion of ELT lands, all 
development efforts were halted.
    With assurances from the federal government that the acquisition of 
the ELT development lands was a high priority, the owner negotiated 
with, and entered into, an assembled land exchange agreement with the 
BLM in hopes of negotiating an intrastate land exchange. The private 
landowner then began the costly process of identifying comparable 
federal lands within the state that would be suitable for an exchange 
for his lands in Washington County. Over the last seven years, BLM and 
the private land owners, including ELT, have completed several 
exchanges, and the federal government has acquired, through those 
exchanges or direct purchases, nearly all of the private property 
located within the reserve, except for approximately 1,516 acres of the 
ELT development land. However, with the creation of the Grand 
Staircase-Escalante National Monument in September 1996, and the 
subsequent land exchanges between the state of Utah and the federal 
government to consolidate federal lands within that monument, there are 
no longer sufficient comparable federal lands within Utah to complete 
the originally contemplated intrastate exchanges for the remainder of 
the ELT land.
    Faced with this problem, and in light of the high priority the 
Department of the Interior has placed on acquiring these lands, BLM 
officials recommended that the ELT lands be acquired by direct 
purchase. During the FY 2000 budget process, BLM proposed that $30 
million be set aside to begin acquiring the remaining lands in 
Washington County. Unfortunately, because this project involves 
endangered species habitat and the USFWS is responsible for 
administering activities under the Endangered Species Act, the Office 
of Management and Budget shifted the $30 million from the BLM budget 
request to the USFWS's Cooperative Endangered Species Conservation Fund 
budget request. Ultimately, none of those funds were made available for 
BLM acquisitions within the federal section of the Reserve. Instead, 
the funds in that account were made available on a matching basis for 
the use of individual states to acquire wildlife habitat.
    The lands within the Red Cliffs Reserve are ELT's main asset. The 
establishment of the Washington County HCP has effectively taken this 
property and prevented ELT from developing or otherwise disposing of 
the property. ELT has been brought to the brink of financial ruin as it 
has exhausted its resources in an effort to hold the property while 
awaiting the compensation to which it is entitled. ELT has had to sell 
its remaining assets, and the private land owner has also had to sell 
personal assets, including his home, to simply hold the property. This 
has become a financial crisis for the landowner.
    It is simply wrong for the federal government to expect the 
landowner to continue to bear the cost of the government's efforts to 
provide habitat for an endangered species. This responsibility resides 
with the federal government. Moreover, while the landowner is bearing 
these costs, he continues to pay taxes on the property. This situation 
is made more egregious by the failure of the Department of the Interior 
to request any acquisition funding for FY 2004, even though the agency 
has repeatedly designated this acquisition as a high priority.
    Over the past several years, ELT has pursued all possible avenues 
to complete the acquisition of these lands. The private land owner has 
spent millions of dollars pursuing both intrastate and interstate land 
exchanges and has worked cooperatively with the Department of the 
Interior. Unfortunately, all of these efforts have thus far been 
fruitless.
    This bill will finally bring about this promised acquisition. It is 
my view that a legislative taking should always be an action of last 
resort. But, if there was ever a time that warranted legislative 
condemnation and intervention, this is it. This bill will transfer all 
right, title, and interest in the ELT development property within the 
Red Cliffs Reserve, including an additional 34 acres of landlocked real 
property owned by ELT adjacent to the land within the Reserve, to the 
federal government. It provides an initial payment to ELT to pay off 
existing debts accrued in holding the property, and provides 90 days 
for both ELT and the Department of the Interior to attempt to reach a 
negotiated settlement on the remaining value of the property.
    I am aware that one of the difficulties in solving this issue is 
the high value of the lands to be acquired. Due to the absence of 
developable lands within the state for exchange, the legislation also 
authorizes an interstate land exchange as one possible tool available 
to the parties to ensure the acquisition. In the absence of a 
negotiated amount, the Secretary of the Interior will be required to 
bring an action in the Federal District Court for the District of Utah 
to determine a value for the land. Payment for the land, whether 
negotiated or determined by the court, will be made from the permanent 
judgment appropriation or any other appropriate account, or, at the 
option of the land owner, the Secretary of the Interior will credit a 
surplus property account, established and maintained by the General 
Services Administration, which the land owner can then use to bid on 
surplus government property.
    Unfortunately, when this bill has been introduced in the past, 
there has been occasional misunderstanding regarding the inclusion of 
the bill's reference to section 309(f) of Public Law 104-333, which 
requires all federal appraisals and acquisitions of land within 
Washington County to be conducted ``without regard'' to the presence of 
an endangered species. This reference does not create a new appraisal 
standard but rather restates the existing standard for all federal land 
acquisition in Washington County, UT. Since its enactment, the 
Department of the Interior has applied this standard to all its 
acquisitions in the county, without exception. This language was 
adopted to allay concerns that local landowners would not receive fair 
compensation for their property which was being acquired for government 
purposes. Some have supposed the inclusion of this language would 
constitute preferential treatment. To the contrary, the absence of this 
language would unfairly treat this landowner differently than every 
other landowner in the Reserve whose land has thus far been acquired by 
the federal government. Moreover, its omission at this point would 
likely lead the Justice Department to argue that Congress did not 
intend for this statutory standard to apply.
    The bill also includes language to allow, as part of the 
legislative taking, for the landowner to recover reasonable costs, 
interest, and damages. It is important to realize that while federal 
acquisitions should be completed on the basis of fair market value, 
when the federal government makes the commitment to acquire private 
land, the landowner should not have to be driven into financial ruin 
while waiting upon the federal government to discharge its obligation. 
While the federal government has never disputed its obligation to 
acquire the property, it has had the benefit of the private land for 
all these years without having to pay for it. The private landowner 
should not have to bear the costs of this federal foot-dragging.
    Clearly, this legislation is consistent with the high priority the 
Department of the Interior has repeatedly placed on this land 
acquisition, and is a necessary final step towards an equitable 
resolution. The time for pursuing other options has long since expired 
and it is unfortunate that it now requires legislative action. Without 
commenting on the Endangered Species Act itself, it would seem that if 
it is the government's objective to provide habitat for the benefit of 
an endangered species, it is the government that ought to bear the 
costs, rather than forcing them upon private citizens. It is also time 
to address this issue so that the federal agencies may be single minded 
in their efforts to recover the desert tortoise which remains the aim 
of the creation of the Reserve. It is time to right this wrong and get 
on with the efforts to recover the species and I encourage colleagues 
in this subcommittee to support the timely enactment of this important 
legislation.

    Senator Craig. I would also welcome back to our committee 
Tom Thompson, Deputy Chief of the National Forest Service and 
Jim Hughes, a Deputy Director for the Bureau of Land 
Management. Gentlemen, thank you for being here who are here to 
testify on legislation.
    I will also recognize my colleague from Colorado in a few 
moments to introduce others who are in attendance here from 
Colorado, a Charlotte Bobicki--did I pronounce that right?
    Ms. Bobicki. Close enough.
    Senator Craig. Close enough, all right.
    [Laughter.]
    Senator Craig. And Kate Booth Doyle. And we appreciate them 
taking their time to be here to testify. I know that they have 
traveled a bit of a long distance to deal with an interesting 
issue and a fascinating concept that you are working on.
    So we will be hearing testimony on five bills today, S. 
1167, introduced by Senator Bond in June to resolve this 
boundary conflict that he spoke to; S. 1209, introduced by 
Senator Bennett, to acquire property in Washington County, Utah 
for the implementation of the desert tortoise habitat 
conservation plan. S. 1467 was introduced by Senator Campbell 
at the end of July, a bill to establish the Rio Grande 
Outstanding Natural Area in the State of Colorado; along with 
S. 1848 introduced this month by Senators Wyden and Smith to 
amend the Bend Pine Nursery Land Conveyance Act to direct the 
Secretary of Agriculture to sell the Bend Pine Nursery 
Administrative Site in Oregon.
    And lastly, H.R. 708 was introduced in February 2003 by 
Congressman Mike Thompson of California and passed by the House 
of Representatives on November 8. The bill would require the 
conveyance of certain national forest lands in Mendocino 
National Forests in California, and would provide for use of 
the proceeds from the conveyance for national forest purposes.
    I have decided to forgo any additional opening statement as 
it relates to the bills. We have those who are here to testify 
so that we can expedite this hearing this afternoon. Let me 
turn first to Senator Campbell. I will then turn to our ranking 
member, Ron Wyden, who has just come in. We are pleased you 
would join us, Ron. And then I will turn to our colleague from 
Missouri.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman, and thank you 
for including my bill, S. 1467, to designate a stretch of the 
Rio Grande River as an Outstanding Natural Area. You have 
already introduced our two witnesses, so I will not do that 
again. But I noticed several other friends in the audience who 
are here that are very interested in this bill.
    This bill deals with the Rio Grande River and its 
tributaries which rise in the San Juan Mountains and flow into 
the San Luis Valley. And the valley, like so much of Colorado, 
is very dependent on snow melt for water. In fact, 600,000 
acres of irrigated farmland within the valley get only an 
average of seven inches of precipitation each year. So it goes 
without saying that the Rio Grande River is the lifeblood of 
the valley, and thousands of farmers and landowners depend on 
it, as well as the flora and fauna including several endangered 
species.
    I might add, Mr. Chairman, we need to thank you, too, for 
your support of the Sand Dunes National Monument which is our 
attempt, which was very successful last year, to be upgraded to 
a National Park status, and the money we needed to buy out the 
private land to protect that very, very sacred place.
    A lot of that area sits on a large underground body of 
water, and this snow melt is what recharges it every year. This 
legislation, S. 1467, is the product of a careful collaboration 
between interested stakeholders including environmental groups, 
landowners, farmers, government officials too.
    These parties all recognize that in order to protect this 
important 33-mile stretch of watershed, something had to be 
done. And after much deliberation, they all agreed that 
designating that stretch of river from the southern edge of 
Alamosa National Wildlife Refuge to the New Mexico State line 
as an Outstanding Natural Area would be the best way to 
maintain its critical reach.
    This bill establishes a commission made up of Federal, 
State and local stakeholders who are charged with developing a 
management plan to restore and protect the area. The Secretary 
of the Interior must review and approve the plan. And on 
approval, the Secretary then must implement the management plan 
coordinating with State and local governments and cooperating 
with landowners, too. Private landowners, in fact, are 
encouraged to participate in the commission.
    As in much of the West, the Rio Grande River's water is 
apportioned to downstream States through interstate compacts 
and, in fact, an international compact. Therefore, make no 
mistake about it, the bill does not include an implied or 
reserved water right.
    It is supported by many. This bill is supported by local 
boards of county commissioners, local water users 
organizations, local cattlemen's associations and the 
environmental community, and affected private landowners, too. 
And as you know, Mr. Chairman, those are not often groups you 
see on the same side of any issue when we are dealing with land 
in the West.
    So I look forward to the hearing and certainly invite my 
colleague, Senator Allard, who will be a co-sponsor of this 
bill, to testify if he happens to come in today.
    Senator Craig. Thank you very much, Senator, for those 
opening comments and statements about that legislation.
    Let me turn to the ranking member of the subcommittee for 
any comments he would wish to make.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you. Thank you, Mr. Chairman. I will 
be brief. Like all of us at the end of this session, I have to 
be in about three places simultaneously.
    I just have a couple of comments about a bill that Senator 
Smith and I have been pursuing now for 4 years. It involves the 
community of Bend in our home State that wants to take title to 
property that the Forest Service has been eager to sell and 
which the park district in the area was eager to acquire for 
superb parks and ball fields.
    We have been working on this for more than 4 years. We felt 
we had a bipartisan bill. Somehow every time the Forest Service 
has been involved, it has ended up taking more time and has 
ended up costing more money. They apparently, have another idea 
today which seems to be more of the same.
    We hope that the committee will look favorably on the 
bipartisan legislation Senator Smith and I have introduced. It 
is embodied in the bill that the subcommittee is looking at 
today that would direct the sell of the Bend Pine Nursery to 
the Bend Pine Parks District for $3.5 million. That figure was 
arrived at by assuming the $3 million value of the property on 
the date the original act was passed, allowing for inflation 
per the Forest Service calculation, and then deducting the 
value of acreage the Forest Service decided not to sell, and 15 
acres the Forest Service has the ability to transfer to a local 
school district at no cost.
    But as a result of all of this delay, I mean we looked at 
one point recently at a cost of $5.8 million, a cost that was 
inconsistent with what Senator Smith and I have been working on 
for 4 years, and runs entirely contrary to the interest of Bend 
taxpayers. So we are very hopeful that we can move this measure 
expeditiously, possibly if we have a markup in the next day or 
so. It continues to have very strong bipartisan support, strong 
bipartisan support at home. And we are very hopeful that the 
subcommittee will look favorably on it.
    I suspect this may be the last meeting of our subcommittee 
for the year. And I want to take this opportunity, Mr. 
Chairman, to say thank you for all of your assistance and 
cooperation. I think we are on the cusp of being able to have 
the Healthy Forest, the bipartisan initiative that we have 
worked on throughout this session going forward. And to a great 
extent, it is because you have been willing to meet me more 
than halfway. I am very appreciative of those efforts and 
hopeful that, like we had with the county payments legislation 
several years ago, we will have another breakthrough in a vital 
area of natural resources. And I thank you. I see Frank 
Gladdicks. There is Frank over there. I thank both of you for 
all of the cooperation that you have shown us throughout the 
session.
    Senator Craig. Well, thank you for those generous words. I 
hope that the session ends with our Forest Health legislation 
becoming law. It is critical and necessary I think, not only 
for forest health but for the safety of our citizens. We have 
experienced some dramatic fire years.
    With that, let me turn to my colleague, Jim Talent from 
Missouri to tell us more about the fouled up boundaries of the 
Mark Twain.

        STATEMENT OF HON. JAMES M. TALENT, U.S. SENATOR 
                         FROM MISSOURI

    Senator Talent. Not much more, Mr. Chairman. You have been 
kind enough to hold this hearing, and I am not going to 
penalize you by going through a long opening statement.
    To make clear what has happened here, the government--the 
Corps of Engineers surveyed this land in 1970 and indicated it 
had certain boundaries for the National Forest. And local 
landowners, in reliance upon that, have bought and sold the 
property, have built fences on the property. And now a 
different government agency has come in and said, ``No. You did 
not own the property after all,'' and refuses to convey it to 
them except after a long administrative process and requiring 
them to pay twice for the same property.
    In a private dispute, the party which was responsible for 
the incorrect survey in the first place would almost certainly 
be estopped from claiming that survey as a basis for now 
claiming the land, but since you cannot estop the Government we 
are in a position where if we do not act, these landowners are 
going to have to pay twice, plus all of the other problems that 
Senator Bond reported. So I hope that we will just sort of make 
an executive decision here that with regard to the small tracts 
of land, that we will go ahead and do justice for these 
individuals and let the agencies sort out responsibility for 
themselves afterward.
    I do want to close by saying that Senator Bond has been 
working on this and really has done yeoman's works and deserves 
a lot of credit for the attention he has paid to the concerns 
of these landowners and the, I think, the requirements of 
justice here.
    And thank you, Mr. Chairman, for letting me make a comment.
    Senator Craig. Well, thank you very much.
    We have a fundamental problem today. It is called GPS. Now 
we can very accurately track boundary lines and after you have 
spent decades and decades with a deed and you have paid taxes 
on property you thought was yours and it has been cleared 
through numerous title companies over the years, and we go back 
and start realigning because we can now survey more accurately 
than ever before, I think that if--I would be a strong 
supporter of your legislation if it outlawed the Federal 
Government from using GPS'es to establish new boundary 
relationships.
    [Laughter.]
    Senator Craig. With that, let me invite our first panel of 
Tom Thompson, Deputy Chief, National Forest Service Systems, 
Department of Agriculture, and Jim Hughes, the Deputy Director, 
Bureau of Land Management, Department of the Interior, to come 
forward. And no, gentlemen, I do not expect you to address the 
GPS comment. But then again, it is not a bad idea.
    [Laughter.]
    Senator Craig. Please proceed, gentlemen. Tom, if you would 
start, we will go in that order to testify on all of the bills 
that you are here to testify on today.

   STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Thompson. Well, thank you, Mr. Chairman, and members of 
the subcommittee. I appreciate this opportunity to be before 
you today.
    I would like to present the Department's view on H.R. 708, 
the Mendocino National Forest Land Exchange, S. 1167, to 
resolve boundary conflicts in Barry and Stone Counties, in the 
State of Missouri, and S. 1848, which is the Bend Pine 
Administrative Site, or the Nursery Site Act. The Department 
supports H.R. 708. We object to S. 1167 unless the bill is 
amended to address some concerns that we have in our testimony. 
And we would like to discuss a different alternative for S. 
1848.
    We start with H.R. 708, which authorizes the direct sale of 
two parcels comprising 120.9 acres of National Forest System 
land on the Mendocino National Forest in California to the 
Faraway Ranch. Various improvements and facilities have been 
constructed on these lands, and they have lost much of their 
National Forest character. This bill provides Faraway Ranch the 
opportunity to acquire these lands associated with their 
improvements and activities.
    At the time of conveyance, Faraway Ranch will make full 
payment of the fair market value as determined by an appraisal 
that conforms to the Federal appraisal standards and is 
acceptable to the Secretary, as well as cover all direct costs 
associated with completing this transaction. The Department 
supports this bill because it will certainly improve management 
efficiency for the forest while recognizing the value of the 
public's assets. That concludes my comments on H.R. 708.
    S. 1167, the Mark Twain National Forest Boundary 
Adjustment: S. 1167 would authorize the Secretary of 
Agriculture or the Secretary of the Army to resolve boundary 
conflicts with certain landowners in Barry and Stone Counties 
in Missouri, who have innocently and in good faith relied upon 
land surveys which they believed to have been correct and have, 
as a result, occupied, improved or claimed portions of 
adjoining Federal land based on such surveys.
    The basic facts in this situation are not in dispute. 
Surveyors under contract to the U.S. Army Corps of Engineers in 
the 1970's, who conducted a series of cadastral surveys in the 
area around the Table Rock Reservoir in Missouri, failed to 
properly locate and monument a number of the original Public 
Land Survey System corners. Subsequent private land surveys, 
who relied upon the incorrectly located corners, have confused 
landowners in Barry and Stone Counties regarding the location 
of what these private boundaries adjoining National Forest 
System lands were, and we believe Corps lands as well.
    Unfortunately, this has led some of the affected adjoining 
landowners to believe they own certain parts of federally 
managed public lands.
    The administration shares Senator Bond's concern that we 
need to find an equitable way to resolve the problems faced by 
these landowners. For the committee's information, I have 
attached to my testimony a January 22, 2003, letter from the 
Missouri State Land Surveyor to the Supervisor of the Mark 
Twain National Forest, describing the situation in Barry and 
Stone Counties and the efforts of the Forest Service and the 
Corps to correct the problems.
    However, the Department objects to the approach to this 
problem that S. 1167 would provide. Our primary concern is that 
S. 1167 would transfer land, which is the property of all U.S. 
citizens, at no cost. But in addition, S. 1167 does not aid 
other landowners in the area with potential title claims and 
questionable boundaries with adjoining private landowners.
    At this point, we believe that the Corps should take the 
necessary actions to correctly establish the Public Land Survey 
System corners, and the Forest Service and the Corps should 
work together to resolve tract-by-tract boundary conflicts in 
Barry and Stone Counties concurrently with the Corps' progress 
in correcting the original surveys.
    In the case of boundary conflicts on National Forest 
Systems lands, those boundary disputes would be resolved under 
the Small Tracts Act. We would like to work with the Committee 
so that correct boundaries can be established for all 
potentially affected private landowners in Barry and Stone 
Counties, as well as for agencies of the Federal Government.
    That concludes my comments on S. 1167.
    S. 1848, the Bend Pine Nursery Administrative Site: S. 1848 
would amend the Bend Pine Nursery Land Conveyance Act to 
require the Secretary to offer to sell 170 acres of the Bend 
Pine Nursery Administrative Site on the Deschutes National 
Forest to the Bend Metro Park and Recreation District in 
Deschutes, County, Oregon for $3.5 million. Proceeds from this 
sale would be deposited in the fund established under the Sisk 
Act. These funds would then be available to the Forest Service 
for the acquisition, construction, or improvement of 
administrative and visitor facilities and associated land in 
connection with the Deschutes National Forest in the Bend 
community, and the acquisition of lands and interests in lands 
in Oregon. The Forest Service has been working with the 
community of Bend, Oregon to implement Public Law 106-526.
    S. 1848 would also direct the conveyance of 15 acres 
located in the northwest corner of this Administrative Site, 
for no consideration, to the Administrative School District, 
Number 1, Deschutes County, in accordance with section 202 of 
the Education Land Grant Act.
    The Department believes that a better approach would be for 
the 170-acres to be reappraised for recreational purposes. We 
would point out that the severing of the 15-acre tract for 
conveyance under the Education Land Grant Act to the Bend-La 
Pine School District may cause unintended delay, because 
additional survey work and analysis would be needed beyond what 
has already occurred. In lieu of this two-conveyance process, 
we suggest a single conveyance of the 185-acre tract, which has 
already been surveyed, to the District, with the requirement 
that the District then convey the 15-acres as envisioned in the 
legislation.
    This concludes my statement. And I would be pleased to 
answer any questions that you may have.
    Senator Craig. Tom, thank you very much.
    [The prepared statement of Mr. Thompson follows:]

           Prepared Statement of Tom Thompson, Deputy Chief, 
   National Forest System, Forest Service, Department of Agriculture

    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to appear before you today. I would like to present the 
Department's views on H.R. 708, the Mendocino National Forest Land 
Exchange, S. 1167, to resolve boundary conflicts in Barry and Stone 
Counties, in the State of Missouri, and S. 1848, the Bend Pine Nursery 
Administrative Site Act. The Department supports H.R. 708, objects to 
S. 1167 unless the bill is amended to address the concerns identified 
in my testimony, and would like to discuss a different alternative for 
S. 1848.

         H.R. 708--THE MENDOCINO NATIONAL FOREST LAND EXCHANGE

    H.R. 708 authorizes the direct sale of two parcels comprising 120.9 
acres of National Forest System lands on the Mendocino National Forest 
in California to the Faraway Ranch. Various improvements and facilities 
have been constructed on these lands and they have lost much of their 
National Forest character. This bill provides Faraway Ranch the 
opportunity to acquire these lands associated with their improvements 
and activities.
    At the time of conveyance, Faraway Ranch will make full payment of 
the fair market value as determined by an appraisal that conforms to 
the Federal appraisal standards and is acceptable to the Secretary, as 
well as cover all direct costs associated with completing this 
transaction. The Department supports this bill because it will improve 
management efficiency for the forest while recognizing the value of the 
public's assets.


      S. 1167--THE MARK TWAIN NATIONAL FOREST BOUNDARY ADJUSTMENT

    S. 1167 would authorize the Secretary of Agriculture or the 
Secretary of the Army to resolve boundary conflicts with certain 
landowners in Barry and Stone Counties, Missouri, who have innocently 
and in good faith relied on land surveys which they believed to have 
been correct and have, as a result, occupied, improved or claimed 
portions of adjoining Federal land based on such surveys.
    S. 1167 would authorize the Secretaries to convey and quitclaim all 
right, title, and interest of the United States in land for which there 
is a boundary conflict; or to confirm Federal title to and retain in 
Federal management any land for which there is a boundary conflict 
where there are Federal interests, and to compensate the qualifying 
claimant for the value of the overlapping property for which title is 
confirmed and retained in Federal management, provided that a claim is 
filed within 15 years of the date of enactment of the Act. S. 1167 also 
authorizes the Secretaries to: (1) waive consideration for the value of 
the Federal land conveyed and quitclaimed upon a finding that the 
boundary conflict was the result of the innocent detrimental reliance 
by the qualifying claimant; (2) pay administrative, personnel, and any 
other costs associated with the implementation of this Act, including 
the costs of survey, marking and monumental property lines and corners; 
and (3) reimburse the qualifying claimant for reasonable out-of-pocket 
survey costs necessary to establish a claim under this Act.
    The basic facts do not appear to be in dispute. Surveyors under 
contract to the U.S. Army Corps of Engineers (Corps) in the 1970's, who 
conducted a series of cadastral surveys in the area around the Table 
Rock Reservoir in Missouri, failed to properly locate and monument a 
number of the original Public Land Survey System (PLSS) corners. 
Subsequent private land surveys, which relied on the incorrectly 
located corners, have confused landowners in Barry and Stone Counties 
regarding the location of private boundaries adjoining National Forest 
System lands, and we believe Corps lands as well. Unfortunately, this 
has led some of the affected adjoining landowners to believe they own 
certain parts of federally managed public land.
    The Administration shares Senator Bond's concern that we need to 
find an equitable way to resolve the problems facing these landowners. 
For the Committee's information, I have attached to my testimony, a 
January 22, 2003, letter from Missouri State Land Surveyor to the 
Supervisor of the Mark Twain National Forest describing the situation 
in Barry and Stone Counties and the efforts of the Forest Service and 
the Corps to correct the problems.
    S. 1167, while attempting to resolve the boundary and landownership 
issues with private adjoining landowners and the Federal government, 
does not aid other private landowners in the area with potential title 
claims and questionable boundaries with adjoining private landowners. 
The unresolved private title claims and questionable boundary locations 
between numerous private landowners relying on federal land surveys 
will encumber private land and title as long as the corners are not 
corrected.
    We would like to work with the Subcommittee to address our concerns 
so that corrective land surveys are conducted and correct boundaries 
can be established for all potentially affected private land owners in 
Barry and Stone Counties, as well as for agencies of the Federal 
Government. However, the Department objects to the approach to this 
problem that S. 1167 would provide.
    Our principal concern is that S. 1167 would transfer Federal land, 
which is the property of all U.S. citizens, at no cost. Since the 
passage in 1983 of the Small Tracts Act (P.L. 97-465, Stat. 2535; 16 
U.S.C. 521c-521i)(STA), the Forest Service has had and has exercised 
the authority to resolve innocent encroachments on National Forest 
System lands based on erroneous land surveys or title opinions. With 
certain modifications addressing the specific situation in this case, 
we believe that the STA should be controlling here. Therefore, we urge 
the Committee to amend S. 1167 to provide that the affected landowners 
should apply to the Forest Service or the Corps, as appropriate, to 
resolve their claims.
    In the case of boundary conflicts on National Forest Systems lands, 
under the STA, the Secretary has the authority to sell, exchange, or 
interchange by quitclaim deed parcels of forty acres or less which are 
interspersed with or adjacent to lands which are determined by the 
Secretary, because of location or size, not to be subject to efficient 
administration; or parcels of ten acres or less which are encroached 
upon by improvements occupied or used under claim or color of title by 
persons to whom no advance notice was given that the improvements 
encroached, or would encroach upon such parcels, and who in good faith 
relied upon an erroneous survey, title, search, or other land 
description indicating that there was not such encroachment. The STA 
allows the Forest Service to collect all reasonable costs (appraisals, 
surveys, title research, etc.), as determined by the Secretary, from 
the claimant for completing the STA application, including the market 
value of the federal lands to be conveyed to the claimant. The Forest 
Service may waive the payment of all reasonable costs, except the 
market value of the federal lands to be conveyed, when there is private 
encroachment of federal lands in those cases in which the Secretary 
determines it would be in the public interest.
    Finally, while the matter of which Federal agency erred may not be 
of particular concern to the affected landowners, we believe any 
corrective legislation should appropriately apportion responsibility 
for the problem. At this point, we believe that the Corps should take 
the necessary actions to correctly establish Public Land Survey System 
corners and the Forest Service and the Corps should work together to 
resolve tract-by-tract boundary conflicts in Barry and Stone counties 
concurrently with the Corps' progress in correcting the original 
surveys.

           S. 1848--THE BEND PINE NURSERY ADMINISTRATIVE SITE

    S. 1848 would amend the Bend Pine Nursery Land Conveyance Act (P.L. 
106-526) to require the Secretary to offer to sell 170 acres of the 
Bend Pine Nursery Administrative Site, on the Deschutes National Forest 
to the Bend Metro Park and Recreation District in Deschutes, County, 
Oregon for $3.5 million. Proceeds from this sale would be deposited in 
the fund established under Public Law 90-171 (16 U.S.C. 484a), commonly 
known as the Sisk Act. The funds would then be available to the Forest 
Service for the acquisition, construction, or improvement of 
administrative and visitor facilities and associated land in connection 
with the Deschutes National Forest in the Bend community, and the 
acquisition of lands and interests in lands in Oregon. The Forest 
Service has been working with the community of Bend, Oregon to 
implement P.L. 106-526.
    S. 1848 would also direct the conveyance of 15 acres located in the 
northwest corner of the Bend Pine Nursery Administrative Site, for no 
consideration, to the Administrative School District, No. 1, Deschutes 
County, Oregon, in accordance with section 202 of the Education Land 
Grant Act (16 U.S. C. 479a).
    The Department believes a better approach would be for the 170-
acres to be appraised for recreational purposes. We would point out 
that the severing of the 15-acre tract for conveyance under the 
Education Land Grant Act to the Ben-La Pine School District may cause 
unintended delay, because additional survey work and analysis would be 
needed beyond what has already occurred. In lieu of this two-conveyance 
process, we suggest a single conveyance of the 185-acre tract, which 
has already been surveyed, to the District, with the requirement that 
the District then convey the 15-acre tract as envisioned in the 
legislation.
    This concludes my statement. I would be pleased to answer any 
questions that you may have.

    Senator Craig. Let us turn to Jim for his testimony and 
then we will question you all jointly. Thank you.
    Jim.

   STATEMENT OF JIM HUGHES, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Hughes. Thank you, Mr. Chairman. I thank the Committee 
for the opportunity to testify on S. 1209, to provide for the 
acquisition of land in Washington County, Utah, and S. 1467, 
the Rio Grande Outstanding Natural Area Act. The administration 
supports the purposes and goals of S. 1209 and S. 1467. While 
the administration supports acquisition of the lands identified 
in S. 1209, it does not support some of the specific provisions 
in this legislation. Regarding S. 1467, the administration 
could support the legislation with a number of modifications.
    On the first bill, S. 1209, the Washington County, Utah 
Desert Tortoise Habitat Conservation Plan: The HCP was adopted 
in 1996 in order to protect important desert tortoise habitat, 
while also allowing continuing development in the fast growing 
St. George, Utah area. Since 1996, the BLM, as a Federal 
partner in the HCP, has coordinated the acquisition of 7,955 
acres within the reserve from willing sellers. Among those 
willing sellers has been Environmental Land Technology, ELT. To 
date, the BLM has acquired a total of 527 acres of land from 
ELT.
    Approximately 1,400 acres of private land remain to be 
acquired within the Red Cliffs Desert Reserve. Of those lands, 
1,365 acres are controlled by ELT. The Interior Department 
Appropriations Act for fiscal year 2004 includes $500,000 in 
LWCF funds for Washington County HCP acquisitions. While we 
will certainly move forward to complete an ELT acquisition 
using these funds, with lands most recently appraising at 
$23,000 an acre, we would only be able to acquire a very small 
portion of the remaining lands in the Reserve.
    The BLM's most recent appraisal of the remaining ELT 
holdings was valued at approximately $28 million when it was 
completed in 2001. The BLM's overall land acquisition project 
budget under the LWCF for fiscal year 2004, in contrast, was 
$13.6 million, and those dollars are designated by Congress for 
a variety of other specific projects.
    The BLM continues to look for other solutions to completing 
the acquisition of ELT's lands within the Red Cliffs Desert 
Reserve at an appraised value under the Uniformed Appraisal 
Standards for Federal Land Acquisitions. However, the bill does 
not exempt the BLM from following its existing land acquisition 
standards.
    The Department supports acquisition of those remaining 
acres. And this legislation, as we understand it, would affect 
a Federal taking of private property and require payment of 
compensation, which is within congressional prerogative. 
However, the Department does not support the specific 
mechanisms provided in the bill to decide and pay ELT the 
compensation for these lands.
    We would like the opportunity to work with the sponsor and 
the committee to improve this legislation to make it consistent 
with the BLM, Department of the Interior, and Department of 
Justice standards and to find the best and most direct way to 
resolve this matter.
    Regarding S. 1467, north from the New Mexico border into 
Colorado is a 33-mile stretch of the Rio Grande River that is 
outstanding for many reasons. Through multiple land 
acquisitions from willing sellers, the BLM has acquired a 
continuous 20-mile stretch of lands along the western bank of 
the Rio Grande, now designated as the Rio Grande Corridor Area 
of Critical Environmental Concern.
    The people who live in the San Luis Valley have come 
together in a collaborative fashion to find ways to further 
protect and enhance this stretch of this historic river.
    S. 1467 establishes the Rio Grande Outstanding Natural Area 
along a 33.3 mile segment of the Rio Grande from the New Mexico 
border north to the Alamosa National Wildlife Refuge in a 
corridor about one-quarter mile wide on either side of the 
River. The overall area includes over 10,000 acres, 
approximately 35 percent of which is BLM-managed public land. 
The remainder is private land.
    The bill establishes a commission whose purpose is to work 
with Federal, State and local authorities to develop an 
integrated resource management plan for the area. We support 
this type of collaborative effort. However, as currently 
drafted, we have concerns about the bill's use of a commission 
as a means of advising the Secretary on land management 
decisions affecting this area. We believe an advisory council 
is a more appropriate vehicle for this collaboration. Chartered 
under the Federal Advisory Committee Act (FACA), an advisory 
council would be able to fill many of the same roles as the 
proposed commission.
    In addition, we would like to work on clarifications to 
this section to ensure that the BLM continues to have final 
responsibility for planning for the Federal lands. A single 
plan covering the entire river corridor is still viable, 
provided it is clear that the BLM has ultimate planning 
authority for the Federal lands.
    While the southern Colorado stretch of the Rio Grande is 
truly outstanding, we would recommend that the sponsors of the 
bill consider whether a different designation for this area 
might be preferred. We would be pleased to work with the 
sponsor and the committee to resolve this concern.
    There are additional technical issues we would like to work 
on as well. They would include a map, clarification of the 
revocations in section 11(a) and improvement of the withdrawal 
in section 11(c).
    Mr. Chairman, we believe the goals of this legislation are 
worthy, and we support them wholeheartedly. The local support 
for this proposal is just the kind of effort that this 
Department and this Administration encourages. We believe that 
by working together cooperatively, this area of the Rio Grande 
can be a model for responsible stewardship of the land.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    Senator Craig. Well, Jim, thank you very much.
    [The prepared statement of Mr. Hughes follows:]

          Prepared Statement of Jim Hughes, Deputy Director, 
         Bureau of Land Management, Department of the Interior

    Thank you for the opportunity to testify on S. 1209, to provide for 
the acquisition of land in Washington County, Utah, and S. 1467, the 
Rio Grande Outstanding Natural Area Act. Both bills are currently being 
discussed by the Administration. The Administration supports the 
purposes and goals of S. 1209 and S. 1467. While the Administration 
supports acquisition of the lands identified in S. 1209, it does not 
support some of the specific provisions in this legislation. Regarding 
S. 1467, the Administration could support the legislation with a number 
of modifications.

                                S. 1209

    The Washington County, Utah Desert Tortoise Habitat Conservation 
Plan (HCP) was adopted in 1996 in order to protect important desert 
tortoise habitat, while also allowing continued development in the fast 
growing St. George, Utah area. The establishment of the 62,000 acre Red 
Cliffs Desert Reserve was a critical element of the HCP. Since 1996, 
the BLM, as a Federal partner to the HCP, has coordinated the 
acquisition of 7,955 acres within the reserve from willing sellers 
through donation, exchange, purchase and conservation easements. Among 
those willing sellers has been Environmental Land Technology (ELT). To 
date, the BLM has acquired a total of 527 acres of land from ELT. Of 
that total, some 157 acres have been acquired through three separate 
land exchanges valued at approximately $2.72 million, and the remaining 
370 acres have been purchased through four different transactions using 
over $6 million of Land and Water Conservation Fund (LWCF) monies 
appropriated by Congress.
    Approximately 1,412 acres of private land remain to be acquired 
within the Red Cliffs Desert Reserve. Of those lands, 1,365 are 
controlled by ELT. The Department of the Interior and Related Agencies 
Appropriations Act of 2004 (Public Law 108-108) includes $500,000 in 
LWCF funds for Washington County HCP acquisitions. While we will 
certainly move forward to complete an ELT acquisition using these 
funds, with lands most recently appraising at approximately $23,000 an 
acre, we would only be able to acquire a very small portion of the 
remaining ELT acreage in the Reserve.
    The BLM's most recent appraisal of the remaining ELT inholding was 
valued at approximately $28 million when it was completed in 2001. The 
BLM's overall land acquisition project budget under the LWCF for FY2004 
is $13.6 million, and those dollars are designated by Congress for a 
variety of other specific projects.
    The BLM continues to look for other solutions to completing the 
acquisition of ELT's lands within the Red Cliffs Desert Reserve. We are 
exploring the possibility of a competitive land sale under the Federal 
Land Transaction Facilitation Act of 2000 (Public Law 106-248), using 
the proceeds potentially to acquire the remaining ELT lands at 
appraised value. This is would take over a year to complete.
    S. 1209 is similar to a bill considered in the 107th Congress, H.R. 
880. On May 10, 2001, the BLM testified before this subcommittee on 
H.R. 880 expressing views similar to those I will share with you today.
    S. 1209 provides that, 30 days after the date of enactment, the 
United States would acquire the remaining ELT lands within the Reserve 
and 34 acres adjacent to the Reserve, and would make an initial payment 
of $15 million within 60 days of enactment. The bill further provides 
that just compensation for the property would be reached either through 
a negotiated settlement between the property owner and the Secretary, 
plus interest from the date of enactment, or through a judgment 
obtained in a civil action brought by the Secretary in Federal Court. 
If a negotiated settlement cannot be reached, then compensation would 
be based on the valuation of the property determined by the court, plus 
interest from the date of enactment, reasonable costs and expenses of 
holding the property from February 1990 to the date of final payment, 
including possible damages, and reasonable costs and attorney's fees.
    As stated before, the Department supports acquisition of these 
remaining acres within the Reserve. This legislation would affect a 
Federal taking of private property and require payment of compensation, 
which is within congressional prerogative. However, the Department does 
not support the specific mechanisms provided in the bill to decide and 
pay ELT the compensation for these lands.
    As written, the $15 million ``initial payment'' would likely come 
from existing programs because no other source is specified in the 
bill. Additionally, it is unclear whether the Department would avoid 
having to make this payment if a negotiated agreement is reached within 
two months from the date of enactment. It is also unclear what latitude 
the Secretary would have in ``negotiating'' a price outside litigation. 
The BLM is subject to the Uniform Appraisal Standards for Federal Land 
Acquisitions, which requires that land be purchased for the appraised 
value, not a higher ``negotiated'' amount. The bill does not exempt the 
BLM from following its existing land acquisition standards.
    We believe the bill should include a mechanism that specifically 
directs the source of funds. The judgment fund may not be the most 
appropriate source of funds to pay for a directed taking. Moreover, the 
Department would be unable to complete a time-consuming exchange or 
acquisition of land subject to all existing laws, including the Federal 
Land Transaction Facilitation Act, within the mandatory timelines in 
the bill. The Committee should address these issues before the bill 
passes.
    The Administration objects to those provisions of S. 1209 that 
deviate from standard land acquisition practices and substitute 
procedures that provide compensation beyond that received by other 
landowners in previous acquisitions in this area. However, the 
Administration supports the goal of acquiring this property for the 
Federal government, and would like the opportunity to work with the 
sponsor and the Committee to improve this legislation to make it 
consistent with BLM, Department of the Interior, and Department of 
Justice standards and to find the best and most direct way to resolve 
this matter.

                                S. 1467

    From its headwaters in Colorado's San Juan Mountains, the Rio 
Grande flows south through Colorado, bisecting New Mexico, then 
crossing into Texas where it forms the U.S./Mexico border until 
emptying into the Gulf of Mexico. At 1,885 miles long, the Rio Grande 
is the fifth longest river in North America (and among the 20 longest 
in the world). Its flowing waters have been essential to survival for 
prehistoric, historic, and present day populations.
    North from the New Mexico border into Colorado is a 33-mile stretch 
of the Rio Grande River that is outstanding for many reasons. Natural 
and undeveloped, this free flowing river is home to extensive wildlife. 
Significant for its recreational, scientific and educational uses, the 
area is dominated by sweeping views and a long history. Through 
multiple land acquisitions from willing sellers, the BLM has acquired a 
continuous 20-mile stretch of lands along the western bank of the Rio 
Grande now designated as the Rio Grande Corridor Area of Critical 
Environmental Concern.
    The people who live in the San Luis Valley have come together in a 
collaborative fashion to find ways to further protect and enhance this 
stretch of this historic river. Discussions about protection of the 
corridor began following completion of the BLM's 1991 San Luis Resource 
Management Plan. As part of the plan, BLM conducted a wild and scenic 
rivers eligibility and suitability analysis and ultimately recommended 
that stakeholders interested in the river create ``some enduring form 
of protection.'' The legislation being considered today is a result of 
that stakeholder process.
    S. 1467, the Rio Grande Outstanding Natural Area Act, was 
introduced on July 28th of this year. The bill's stated purpose is to 
conserve, restore, and protect this special resource. It does this by 
establishing the Rio Grande Outstanding Natural Area along a 33.3 mile 
segment of the Rio Grande from the New Mexico border north to the 
Alamosa National Wildlife Refuge in a corridor about , mile wide on 
either side of the river. The overall area includes over 10,000 acres, 
approximately 35% of which is BLM-managed public land. The remainder is 
private land.
    The bill establishes a commission whose purpose is to work with 
Federal, State and local authorities to develop an integrated resource 
management plan for the area. We support this type of collaborative 
effort. The Secretary's 4Cs envision just this type of endeavor. 
However, as currently drafted, we have concerns about the bill's use of 
a commission as a means of advising the Secretary on land management 
decisions affecting this area. Specifically, the bill does not address 
the funding source for the commission, does not make clear the nature 
of the commission's advisory role, or its impact on affected private 
property interests. Given these concerns, we believe an advisory 
council is a more appropriate vehicle for this collaboration. Chartered 
under the Federal Advisory Committee Act (FACA), an advisory council 
would be able to fill many of the same roles as the proposed 
commission. The BLM currently works with 39 advisory councils. They 
range from our 23 Resource Advisory Councils (RACs), which provide 
advice on multiple use management of public lands within a state or 
region of a state, to area-specific advisory councils, such as the 
Steens Mountain Advisory Council or the Canyons of the Ancients 
National Monument Advisory Committee in southwestern Colorado. All 
recommendations by advisory councils are considered by the BLM's State/
field offices and by the Washington office when making decisions about 
the management of public lands.
    In addition, we would like to work on clarifications to this 
section to ensure that the BLM continues to have final responsibility 
for planning for the Federal lands. A single plan covering the entire 
river corridor is still viable, provided it is clear that the BLM has 
ultimate planning authority for the Federal lands. It is our 
understanding that the focus of this process would be restoration of 
the historic riparian community along the river. Specifically, issues 
of livestock movement through the largely unfenced river corridor, 
designation of vehicle access routes to minimize impact on riparian 
vegetation, and management of riparian habitat on BLM lands are likely 
to be addressed.
    Undertaking a management plan is a time-consuming task requiring 
extensive resources and expertise. We believe the time deadlines and 
other specifics of the planning sections established in the bill may be 
overly optimistic. In order to ensure a fully cooperative, 
collaborative, and consultative process that is consistent with the 
National Environmental Protection Act (NEPA) and other laws and 
regulations, we would urge longer timeframes. We would be pleased to 
work with the sponsor and the Committee to address this concern.
    While the southern Colorado stretch of the Rio Grande is truly 
outstanding, we would recommend that the sponsor of the bill consider 
whether a different designation for this area might be preferred. 
Currently, the BLM manages only one ``Outstanding Natural Area'' (ONA), 
the Yaquina Head ONA, located on the Oregon coast. Yaquina Head ONA is 
a tourist destination with an emphasis on visitation. Because 
visitation is not a stated goal in this area, we are concerned that 
using the same terminology could result in confusion. Possible 
alternatives would be a ``cooperative management and protection area,'' 
such as exists in eastern Oregon in the Steens Mountains, or 
``cooperative river management area.'' We would be pleased to work with 
the sponsor and the Committee to resolve this concern.
    There are additional technical issues we would like to work on as 
well. For example, we would like the opportunity to work with the 
sponsor and the Committee on an accurate map of the proposed area.
    Additionally, Section 11(a) of the bill calls for the revocation of 
any existing reservations on the public lands within the area. There 
are two such reservations. The first is a 1949 administrative 
withdrawal of approximately 2,700 acres for the purpose of future 
hydroelectric development (this withdrawal covers lands both in 
southern Colorado and northern New Mexico.) The second is a 1939 
Executive Order creating public water reserves for the purpose of 
livestock and domestic access. These reservations are no longer 
necessary, because in the former case, hydroelectric development has 
been rejected as a viable option for this section of the river and in 
the later case because access to the Rio Grande now exists due to 
subsequent BLM land acquisitions. As written, the language only revokes 
the portion of the reservation within the 1/4-mile river corridor, and 
could result in unnecessary management confusion. As all of these 
reservations are river-based, we advocate a complete revocation of the 
reservations in lieu of a partial revocation.
    Section 11(c) of the bill withdraws the public lands within the 
newly designated area from a host of public laws and provisions. To 
avoid confusion, we would recommend a standard withdrawal from 
location, entry, appropriation and/or patent under the public land laws 
and mining laws as well as from operations of the mineral leasing, 
mineral materials, and geothermal leasing laws. Such a standard 
withdrawal will foster clear understanding and, we believe, reflects 
the intent of the sponsor.
    The Administration supports sections 9(c), 13, and 14 regarding 
water rights. This language makes clear that the designations in this 
Act shall not be construed to constitute an express or implied water 
right.
    Mr. Chairman, we believe the goals of this legislation are worthy 
and we support them wholeheartedly. The local support for this proposal 
is just the kind of effort that this Department and this Administration 
encourages. We believe that by working together cooperatively, this 
area of the Rio Grande can be a model for responsible stewardship of 
the land.
    Thank you for the opportunity to testify, I would be happy to 
answer any questions.

    Senator Craig. Tom, thank you for your testimony. We will 
run through a round of questions here to see if can get this 
wrapped up as quickly as possible.
    Tom, on S. 1167 as it relates to the boundary conflicts on 
the Mark Twain, the approach you are proposing sounds labor 
intensive and time consuming. Is there not a more expedient 
process that gets these surveys corrected and private land 
titles resolved?
    Mr. Thompson. Mr. Chairman, the approach that we are 
suggesting is to do two things. One is to deal on a case-by-
case basis with these differences that exist, that have been 
brought about because of an erroneous location of boundaries. 
The original corners were set in the 1840's. The surveys that 
were done in the 1970's erroneously located those. The original 
corners are where they are.
    And what we are saying is, number one, let us find the 
original ones and correct the boundaries so that we do not 
perpetuate this problem for years and years and years to come. 
At the same time, we are suggesting that we deal with these 
cases. And for us with the Forest Service, we would use the 
Small Tracts Act to take care of these disputes.
    It is a two-pronged thing. One is to solve the long-term 
problem of having bad surveys. And the other one is to deal 
with the differences that exist and use whatever authorities we 
can to make the appropriate transfers that need to be made.
    Senator Craig. Well, you all know a great deal more about 
it than I, as do my colleagues from Missouri. I hope we can 
count on the Forest Service working with this committee over 
the next month or so, so that we can resolve this and move this 
legislation out to get a solution to it.
    Mr. Thompson. We look forward to doing that. We really do.
    Senator Craig. It is awfully difficult to say to somebody 
who thought they bought their land in good faith, that, ``You 
are going to have to re-buy it again,'' especially if you have 
owned it for 25 or 30 years and you have paid taxes on it.
    Mr. Thompson. Yes.
    Senator Craig. And that is a conflict that is, you know, 
speaking loudly to a resolution.
    On S. 1848, the Bend Pine Nursery, this legislation seems 
straightforward, a straightforward solution to a problem in 
Oregon. And the Forest Service cannot support the bill as it 
is?
    Mr. Thompson. Well, it is our belief that we have an 
opportunity through a new survey, which is not to look at the 
value in the best and highest use, but to do the appraisal 
based upon recreational use which is what its use would be 
under this sale. And so it is just to get a focused appraisal 
based upon the use that it is going to be. That is not the way 
the appraisal was done. And it is a matter of going back, 
taking 6 months to do that, and----
    Senator Craig. How much would a new appraisal cost?
    Mr. Thompson. Oh, I am not sure. I think it----
    Senator Craig. You suggested 6 months, so we understand 
where the time is. How about the money?
    Mr. Thompson. I am not sure exactly what the amount for the 
new survey would be. I think it is somewhere around $500,000.
    Senator Craig. And how many acres are we talking about?
    Mr. Thompson. 185 acres total, but 15 of that would be 
conveyed under the ELGA provisions.
    Senator Craig. And what is that land worth per acre?
    Mr. Thompson. I am sorry?
    Senator Craig. And what is that land worth per acre?
    Mr. Thompson. The----
    Senator Craig. I know Bend.
    Mr. Thompson. Yes. The appraisal that we completed over the 
last year came in at $5.8 million.
    Senator Craig. I see.
    Mr. Thompson. And so that is what--but that is under a 
different assumption.
    Senator Craig. The Forest Service has a half a million 
dollar in their budget to complete the survey?
    Mr. Thompson. We feel that this is an important resolution 
that we want to have, an equitable and an expeditious way of 
resolving this and we want to be fair.
    Senator Craig. Yes.
    Mr. Thompson. And we want to make sure that we have the 
right information and data to support it.
    Senator Craig. Okay.
    Mr. Thompson. It is an alternative.
    Senator Craig. Sure.
    Mr. Thompson. And we certainly believe that it is one 
approach.
    Senator Craig. Thank you.
    On H.R. 708, Mendocino National Forest Conveyance, this 
legislation calls for the proceeds to be used for acquisition 
of non-Federal lands adjacent to the Forest Service which seems 
to be a common approach for revenue generated from the sale of 
Federal lands. Would the Forest Service support this language 
that provides authority to use these funds for forest health 
such as fuel reduction?
    Mr. Thompson. I do not think we would oppose that.
    Senator Craig. Yes. Okay. Well, Jim, I will get to you on 
the next round. Let me turn to my colleague who may be asking 
all of the right questions at the time specifically to the BLM 
issues. So let me turn to him.
    Senator Campbell. Thank you, Mr. Chairman.
    Senator Craig. Senator Campbell.
    Senator Campbell. Jim, as I understand your testimony as I 
read it and listened to you, you used the word ``outstanding.''
    Mr. Hughes. Yes.
    Senator Campbell. That is what we put in the title, as you 
know. I guess it can be outstanding if we do not call it 
outstanding, is that correct?
    [Laughter.]
    Mr. Hughes. I do not want to mislead you, Senator. I think 
one of the issues we have--it is our understanding that the 
people--you know, many times a community or a group will come 
together and they want to designate a monument or a park and, 
quite frankly, one of the reasons is they want tourism and they 
want to attract people there.
    Senator Campbell. Sure.
    Mr. Hughes. It is our understanding that that may not be 
the case in this area. And we just raised that issue, so----
    Senator Campbell. Well, in the BLM, is it like the Park 
Service in that they have certain specified, I do not know, 
attributes or topography or so on for different kinds of names? 
That is the difference between ``national monument'' and 
``national park'' as an example. Does the BLM have that same 
kind of a stratified system when you use a certain name?
    Mr. Hughes. Yes, that is correct. And again, I do not--we 
do not have great opposition. We just raise that as an issue to 
the community.
    Senator Campbell. Well, reading it and hearing you, the 
changes you recommended do not seem unreasonable to me, but I 
would like to withhold judgment until we hear from the Colorado 
witnesses.
    Have you been out there, by any chance, been to that 
valley? They say it is the largest valley in the United States 
at that elevation.
    Mr. Hughes. No. I have heard a lot about it though, 
Senator.
    [Laughter.]
    Senator Campbell. Well, it is a great place. I go through 
every few weeks myself, and you would not believe that one of 
the nicknames is ``A Land of Cool Sunshine,'' because it can be 
sunny and just brilliant and 20 below at the same time. And yet 
there is an alligator farm out there. And I never would have 
believed alligators could be raised at 20 below if I had not 
gone to visit it one time.
    [Laughter.]
    Mr. Hughes. They wear coats.
    [Laughter.]
    Senator Campbell. Of course, the water they are in is not 
that cold either, but----
    [Laughter.]
    Senator Campbell. I thought I would point that out. If you 
get there, there are some terrific things to see.
    Mr. Hughes. Thank you, Senator.
    Senator Campbell. Well, I have no further questions. But I 
would ask you if you would be willing to work with staff if we 
can work out, you know, some of the nomenclatures and the 
different small things.
    Mr. Hughes. Oh, yes. And with the people out there, we 
would be happy to work with them also.
    Senator Campbell. Thank you.
    Mr. Hughes. Thank you.
    Senator Campbell. Thank you, Mr. Chairman.
    Senator Craig. Thank you.
    Now, let me turn to my colleague, Senator Talent.
    Senator Talent. Thank you, Mr. Chairman.
    Tom, we would all like to get this resolved. And I 
appreciate the good faith in which you are acting. The concerns 
that you raise, it seems to me, that are or may be legitimate 
from 40,000 feet if you are the government, but really are not 
when you apply it to these landowners.
    One of them is that we should not convey property without 
cost, but these people have paid. What we really are doing is 
asking them to pay twice, would we not be? Because, as the 
chairman said, they have paid for the land and they have paid 
taxes all of this time. They just paid the wrong person, is 
their claim, but that is not their fault. So I mean, it is not 
without cost to them. I mean, is that not fair?
    Mr. Thompson. Well, the issue would be if they were 
acquiring additional land. I mean, obviously, we want to get 
the boundaries----
    Senator Talent. Clarified.
    Mr. Thompson. Yes. I mean, it is the assumption that lands 
that they have improvements on, that, you know, from a legal 
standpoint, really is not theirs if you will not go back, but 
the idea of giving them that land that they have improvements 
on, transferring that to them, and having an equitable return, 
compensation to the citizens of the country, so----
    Senator Talent. Well, the point is that they have paid in 
reliance, good faith reliance on the Government survey which 
the Act requires, that they have acted in reliance and in good 
faith and innocently. They have paid for the property, and they 
have also paid the taxes.
    So if we say to them, ``Now, you cannot have your property 
unless you pay again,'' effectively they will have to pay 
twice. That is the point I am making.
    So this would be a basis, it seems to me, for you all 
making an exception to what I understand is an important 
administrative policy for you. You do not want to be 
transferring land without getting some payment, but in this 
case you could say, ``Well, you know, we can make an exception 
because there was payment to somebody for this.''
    The point I wanted to make is, Mr. Chairman, as Tom 
mentioned, case-by-case claims, well, the Act would require 
that. They would have to file a claim and they would have to 
prove under procedures set forth that they had innocently and 
in good faith relied on the Federal survey and occupied and 
improved the claimed land. So it is not like we are just going 
to sweepingly, in the Act, give this property. They are going 
to have to go through an administrative process. It just 
expedites things. And I guess what I--it is not really a 
question so much as a comment. It does deal with the concern 
about a case-by-case adjudication of it.
    Another thing is, Mr. Chairman--and maybe you could comment 
on this--we would all like to resolve all of the disputes at 
once, including disputes between private landowners. But that 
will have to be resolved according to State law, will it not?
    Mr. Thompson. Well, obviously, if we can get the survey 
corrected those will be much easier to resolve in the long-
term. And I think all parties agree that that would be the----
    Senator Talent. That we want to get this resolved.
    Mr. Thompson [continuing]. Best thing to do.
    Senator Talent. Yes, we want----
    Mr. Thompson. We want to get the survey----
    Senator Talent. We want to get the survey correct.
    Mr. Thompson. Yes.
    Senator Talent. And I think we have to do that before we 
resolve these claims.
    But the point I am making, Mr. Chairman, is that if we wait 
to do anything for these people who have--against whom the 
Federal Government is claiming something, until all of the 
private disputes are finished, we are going to have to wait for 
the whole State law process to work itself out, because this is 
a case where the State courts are going to have to determine 
what the impact of this improper Federal survey is on State 
law, you know, because that is a Missouri question, unless we 
want to try in this legislation to take that from them which 
Senator Bond and I certainly do not want to do.
    So I guess what I am saying is: Let us resolve the piece of 
it we can resolve. I think it is without prejudice to the good 
policy that we do not transfer Federal property without 
payment, because they have paid. And I appreciate the chance to 
ask some questions, Mr. Chairman.
    Senator Craig. Sure.
    Senator Talent. And I do appreciate that you all have been 
working with Senator Bond's office in particular. And I know 
that you are just trying to stand up for the interests of the 
people in this land. I think we can resolve it, and I think the 
bill really does.
    Thank you, Mr. Chairman.
    Senator Craig. Senator Talent, thank you very much.
    Jim, let me come back to you for a final question on S. 
1209, the Washington County, Utah land acquisition. In your 
testimony, you mentioned that the BLM had already coordinated 
the acquisition of some 4,400 acres of land within the Red 
Cliffs Desert tortoise reserve. How important is the 1,550 
acres currently held by ELT to the effectiveness of the 
reserve?
    Mr. Hughes. I am not a biologist, from that standpoint, but 
according to what I have seen in terms of the map, et cetera, 
there is a highway very close to this property. And I think 
from that standpoint, it would represent sort of a corridor to 
the highway. So I think it is an important portion for both 
keeping people out of there and for protecting the tortoise.
    And I would point out the habitat conservation plan has 
been very successful up to this point. I think it has the 
largest population of desert tortoise in the West right now in 
a confined area. So it seems to be, at least in that location, 
working.
    Senator Craig. Well, a highway----
    Mr. Hughes. Right.
    [Laughter.]
    Senator Craig. A highway would be pretty critical to a 
tortoise.
    Mr. Hughes. Right, right. That is what I thought, too.
    [Laughter.]
    Senator Craig. Cars tend to move a lot faster than 
tortoises do.
    Mr. Hughes. Right. That is what I thought.
    [Laughter.]
    Senator Craig. All right. In your testimony, it is clear 
that BLM is eager to find a way to complete acquisition of this 
critical tortoise habitat. How would this legislation need to 
be changed to accommodate BLM's major concerns?
    Mr. Hughes. I think there are probably several things. I 
think, first of all, the method of payment that is proscribed 
in here, the legal taking that is authorized. I think there are 
serious questions about those that we would have to work out 
with the Justice Department. The question really is: How do we 
compensate? I think the Department feels strongly that we have 
an obligation to acquire this property, you know, because that 
is what we agreed to when the Department in 1996 entered into 
this habitat conservation plan.
    Senator Craig. Yes.
    Mr. Hughes. So it will take, I think, some degree of staff 
work at the administration level and then working with staff up 
here to resolve it.
    Senator Craig. Well, we will work with you to resolve that 
issue before this legislation moves, and hope we can do that.
    Gentlemen, thank you very much for your time and your 
involvement with these issues and this legislation.
    Mr. Hughes. Thank you.
    Mr. Thompson. Thank you.
    Senator Craig. I will now turn to my colleague from 
Colorado, Senator Ben Nighthorse Campbell, to introduce our 
guest and witness from his State.
    Ben.
    Senator Campbell. Yes. Mr. Chairman, I think we only have 
two witnesses. There are, in fact, none for the other bills 
other than S. 1467.
    Senator Craig. That is right.
    Senator Campbell. I would like to introduce Mrs. Charlotte 
Bobicki who is the Alamosa County Commissioner, and Ms. Kate 
Booth Doyle, San Luis Valley Ecosystem Council, both towns in 
the Big Valley.
    If you ladies would, just go ahead in the order I 
introduced you. Welcome to Washington.
    Ms. Bobicki. Thank you.
    Senator Craig. Thank you, Ben.
    Please proceed.

                STATEMENT OF CHARLOTTE BOBICKI, 
            COUNTY COMMISSIONER, ALAMOSA COUNTY, CO

    Ms. Bobicki. Thank you, Mr. Chairman and members of the 
committee. I am Charlotte Bobicki, a county commissioner from 
Alamosa County, Colorado. Alamosa County is located in the San 
Luis Valley, a high mountain valley in south central Colorado 
which is drained by the Rio Grande.
    The Rio Grande and its tributaries rise in the San Juan 
Mountains and are fed almost exclusively by snow melt. From the 
mountains, the Rio Grande flows into the San Luis Valley, 
across the Valley floor, and then south into New Mexico. The 
San Luis Valley has an average elevation of more than 7,000 
feet above sea level and is about 100 miles north to south and 
75 miles east to west. Portions of the Valley floor receive an 
average of only 7 inches of precipitation per year, while the 
surrounding mountains receive precipitation principally in the 
form of snow that averages more than 30 inches of moisture 
annually.
    More than 70 percent of the annual flow of the Rio Grande 
and its tributary streams occurs in a 3- to 4-month period, 
from early May to the end of July. There is a map at the back 
of our testimony that shows the precipitation distribution in 
our area.
    There are approximately 600,000 acres of irrigated farmland 
in the San Luis Valley which depend upon the waters of the Rio 
Grande and its tributaries for irrigation supplies. The great 
majority of the irrigation systems were privately constructed 
more than 100 years ago and remain privately operated today. 
The San Luis Valley grows some of the finest potatoes in the 
United States as well as small grains, alfalfa and grass hay, 
and vegetables such as lettuce and carrots.
    Along the Rio Grande, near the city of Alamosa in the 
center of the Valley is the Alamosa National Wildlife Refuge. 
There is another map at the back of our testimony which shows 
the location of the San Luis Valley in Colorado, as well as a 
smaller scale map showing the location of the proposed 
Outstanding Natural Area. And I need to mention that there is a 
correction on two of the maps in the back showing this 
location.
    The water of the Rio Grande and its tributaries is the 
subject of an Interstate Compact between the States of 
Colorado, New Mexico and Texas that was signed in 1938. The 
Compact apportions the waters of the Rio Grande using an 
inflow/outflow technique under which the native flows of the 
River that are coming out of the mountains are measured, and 
Colorado's obligation to make deliveries to New Mexico are 
calculated as a percentage of that inflow.
    Every year, there are deliveries to New Mexico as required 
by the Compact, although the quantities vary significantly from 
years of severe drought to years with extremely high water 
conditions. As the result of the Compact-required deliveries, 
there is always water flowing in the Rio Grande south of 
Alamosa.
    In the southern part of the San Luis Valley, the Rio Grande 
flows across the broad, relatively treeless valley floor, where 
the vegetation consists primarily of sage and other sparse, 
drought-resistant plants. Only along the River are there 
significant amounts of willow and cottonwood. More than half of 
the land bordering the River is in private ownership, with the 
rest being controlled by the Bureau of Land Management.
    In many places, the riparian zone along the River is 
degraded because of past land use practices, on both private 
property and BLM lands. For a number of years, Federal, State 
and local officials have looked for a way to restore and 
protect the riparian zone of the River without creating a 
management structure that would conflict with the long-standing 
water uses upstream in the San Luis Valley. Our agricultural 
economy is more than a century old and it is very important to 
maintain our ability to continue to use water for the benefit 
of our residents and those who use our agricultural products.
    We believe a Federal designation of an Outstanding Natural 
Area along the Rio Grande as proposed by Senator Campbell, will 
permit the cooperative restoration and protection of the River 
corridor by both the private and public landowners. The 
Outstanding Natural Area Legislation before you today provides 
for the creation of a commission made up of Federal, State and 
local stakeholders whose charge is to develop a management plan 
for submission to the Secretary of the Interior that 
establishes the procedures that will be used to restore and 
protect the Area. Participation by private landowners in the 
plan is encouraged, but it is entirely voluntary.
    Because of the Compact delivery requirements, this bill 
would recognize that no implied or Federal reserved water 
rights would be required for the Area, thereby eliminating 
potential conflicts between the Federal land management agency 
and the upstream private water right holders.
    The Board of County Commissioners of all of the counties in 
the San Luis Valley have voted unanimously to support the 
Outstanding Natural Area legislation. We believe the ability to 
create cooperative, win-win solutions such as this are few and 
far between, but in this instance there is a willingness on the 
part of local government, State government, citizen groups, 
affected landowners as well as local Federal agency 
representatives to work together for the benefit of the Valley 
and its environment. We are in agreement that the Outstanding 
Natural Area proposed by this bill is in all of our interests. 
All we need now is your support.
    On behalf of the county commissioners of the counties of 
the San Luis Valley, Costilla, Conejos, Alamosa, Rio Grande, 
Sagauche and Mineral, we ask that you favorably consider 
Senator Campbell's S. 1467 and give us the opportunity to 
restore and protect the riparian zone of the Rio Grande in a 
way that does not create conflicts between the interests of 
Federal agencies and the interests of the citizens of our 
community.
    Thank you very much for the opportunity to appear before 
you today.
    Senator Craig. Madam Commissioner, thank you very much for 
that testimony.
    [The prepared statement of Ms. Bobicki follows:]

     Prepared Statement of Charlotte Bobicki, County Commissioner, 
                           Alamosa County, CO

    Mr. Chairman and members of the Committee. I am Charlotte Bobicki, 
a County Commissioner from Alamosa County, Colorado. Alamosa County is 
located in the San Luis Valley, a high mountain valley in south central 
Colorado which is drained by the Rio Grande. The Rio Grande and its 
tributaries rise in the San Juan Mountains and are fed almost 
exclusively by snowmelt. From the mountains the Rio Grande flows into 
the San Luis Valley, across the Valley floor, and then south into New 
Mexico. The San Luis Valley has an average elevation of more than 7,000 
feet above sea level and is about 100 miles north to south and 75 miles 
east to west. Portions of the Valley floor receive an average of only 
seven inches of precipitation per year, while the surrounding mountains 
receive precipitation principally in the form of snow that averages 
more than 30 inches of moisture annually. More than 70% of the annual 
flow of the Rio Grande and its tributary streams occurs in a three or 
four month period, from early May to the end of July. There is a map at 
the back of our testimony that shows the precipitation distribution in 
our area.*
---------------------------------------------------------------------------
    * The accompanying maps have been retained in subcommittee files.
---------------------------------------------------------------------------
    There are approximately 600,000 acres of irrigated farmland in the 
San Luis Valley which depend upon the waters of the Rio Grande and its 
tributaries for irrigation supplies. The great majority of the 
irrigation systems were privately constructed more than 100 years ago 
and remain privately operated today. The San Luis Valley grows some of 
the finest potatoes in the United States as well as small grains, 
alfalfa and grass hay, and vegetables, such as lettuce and carrots. 
Along the Rio Grande, near the city of Alamosa in the center of the 
Valley is the Alamosa National Wildlife Refuge. There is another map at 
the back of our testimony which shows the location of the San Luis 
Valley in Colorado as well as a smaller scale map showing the location 
of the proposed Outstanding Natural Area.
    The water of the Rio Grande and its tributaries is the subject of 
an Interstate Compact between the states of Colorado, New Mexico and 
Texas that was signed in 1938. The Compact apportions the waters of the 
Rio Grande using an inflow/outflow technique under which the native 
flows of the rivers coming out of the mountains are measured and 
Colorado's obligation to make deliveries to New Mexico are calculated 
as a percentage of that inflow. Every year, there are deliveries to New 
Mexico as required by the Compact, although the quantities vary 
significantly from years of severe drought to years with extremely high 
water conditions. As the result of Compact required deliveries, there 
is always water flowing in the Rio Grande south of Alamosa.
    In the southern part of the San Luis Valley, the Rio Grande flows 
across the broad, relatively treeless valley floor, where the 
vegetation consists primarily of sage and other sparse, drought 
resistant plants. Only along the River are there significant amounts of 
willow and cottonwood. More than half of the land bordering the River 
is in private ownership, with the rest being controlled by the Bureau 
of Land Management. In many places, the riparian zone along the River 
is degraded because of past land use practices, on both private 
property and BLM lands.
    For a number of years, federal, state and local officials have 
looked for a way to restore and protect the riparian zone of the River 
without creating a management structure that would conflict with the 
long-standing water uses upstream in the San Luis Valley. Our 
agricultural economy is more than a century old and it is very 
important to maintain our ability to continue to use water for the 
benefit of our residents and those who use our agricultural products.
    We believe a federal designation of an Outstanding Natural Area 
along the Rio Grande as proposed by Senator Campbell, will permit the 
cooperative restoration and protection of the River corridor by both 
the private and public landowners. The Outstanding Natural Area 
Legislation before you today provides for the creation of a Commission 
made up of federal, state and local stakeholders whose charge is to 
develop a management plan for submission to the Secretary of the 
Interior that establishes the procedures that will be used to restore 
and protect the Area. Participation by private landowners in the plan 
is encouraged, but it is entirely voluntary.
    Because of the Compact delivery requirements, this bill would 
recognize that no implied or Federal reserved water rights would be 
required for the Area, thereby eliminating potential conflicts between 
the federal land management agency and the upstream private water right 
holders. The Board of County Commissioners of all of the counties in 
the San Luis Valley have voted unanimously to support the Outstanding 
Natural Area legislation. We believe the ability to create cooperative, 
win-win solutions such as this are few and far between, but in this 
instance there is a willingness on the part of local government, state 
government, citizen groups, affected landowners as well as local 
federal agency representatives to work together for the benefit of the 
Valley and its environment. We are in agreement that the Outstanding 
Natural Area proposed by this bill is in all of our interests. All we 
need now is your support.
    On behalf of the County Commissioners of the counties in the San 
Luis Valley: Costilla, Conejos, Alamosa, Rio Grande, Sagauche and 
Mineral, we ask that you favorably consider Senator Campbell's S. 1467 
and give us the opportunity to restore and protect the riparian zone of 
the Rio Grande in a way that does not create conflicts between the 
interests of federal agencies and the interests of the citizens of our 
community. Thank you very much for the opportunity to appear before you 
today.

    Senator Craig. Before we ask questions of you, let me turn 
to Ms. Kate Booth Doyle of the San Luis Valley Ecosystem 
Council. Please proceed.
    Ms. Booth Doyle. Thank you.

   STATEMENT OF KATE BOOTH DOYLE, SAN LUIS VALLEY ECOSYSTEM 
                       COUNCIL, COLORADO

    Ms. Booth Doyle. Thank you for the opportunity to speak. 
And thank you, Senator Campbell, for introducing the bill. I 
appreciate that.
    Mr. Chairman and members of the committee, my name is Kate 
Booth Doyle. I am a member of the San Luis Valley Ecosystem 
Council, and have been actively involved in the development of 
the Outstanding Natural Area Legislation for many years. I am 
also a landowner along the Rio Grande in the area to be 
encompassed by the Outstanding Natural Area.
    I wish to first explain that the San Luis Valley Ecosystem 
Council is an umbrella group of citizens concerned about the 
environment and is active in other nationally recognized groups 
such as the Sierra Club, the Wilderness Society, the National 
Wildlife Federation, Ducks Unlimited and Trout Unlimited. We 
work together under the banner of the Ecosystem Council on 
issues of specific concern to our beloved San Luis Valley.
    All of the citizens of the Valley are very proud of their 
ability to work together on issues of common concern. Although 
you may find it surprising, the members of the environmental 
community, the members of agricultural community, the business 
men and women and the residents of the cities and towns and 
their elected officials have been able to work out cooperative 
win-win solutions to many problems they have faced over the 
years.
    We consider the Federal land managers from the Bureau of 
Land Management, the Forest Service and the Fish and Wildlife 
Service to be our allies and friends, not our enemies, and we 
have attempted to establish a model where compromise among all 
of the interest groups is always the goal.
    Senator Campbell's Rio Grande Outstanding Natural Area 
Legislation before you today is just such an effort. It is the 
result of a significant amount of consultation and cooperation. 
It is supported not simply by the environmental community in 
the San Luis Valley, but also by the irrigation districts, the 
mutual ditch companies, the conservancy and conservation 
districts, the Cattlemen's Association, and many landowners 
along the affected reach of the River. In addition, we have 
enjoyed the cooperation of local Federal officials, both from 
the Bureau of Land Management and the Fish and Wildlife 
Service. We all hope you will give us your support in this very 
positive and proactive effort.
    There is another reason that S. 1467 is an important 
initiative. After discussions had started about the 
opportunities to create an Outstanding Natural Area to better 
manage the River's riparian zone, we were informed that an 
endangered species, the Southwest Willow Flycatcher was 
believed to exist in the San Luis Valley. As a result, we 
promptly began the process of developing a habitat conservation 
plan to protect that species and the Outstanding Natural Area 
will be an important part of that Plan by giving us another 
reason to work together to restore the willow stands along the 
riparian fringe of the River. These willows are the primary 
habitat of the Southwest Willow Flycatcher.
    Our local community wishes to continue its successful 
practice of working together to take a proactive approach in 
solving environmental problems. In this case, the identified 
problem is the need to protect and restore the riparian zone of 
the Rio Grande between the Alamosa National Wildlife Refuge and 
the State line.
    The Outstanding Natural Area approach will provide 
significant private landowner input into the development of the 
management plan and will allow the Federal land and private 
land to be managed cooperatively.
    I want to emphasize that there is nothing in the 
legislation that can compel an unwilling landowner to 
participate. However, we believe that there will be 
overwhelming interest in participating in the plan as 
landowners begin to strive to meet their responsibilities to be 
good stewards.
    I should be clear that there are some who would prefer to 
see the Rio Grande designated as a Wild and Scenic River. 
However, the environmental community in the Valley recognizes 
that to do so would create the potential of a Federal reserve 
water right with all of the inherent conflicts and 
controversies with private water users. We do support the 
acquisition of a minimum stream flow by the State of Colorado 
under Colorado law, as the legislation recognizes.
    The beauty of this legislation is that it provides an 
opportunity to improve and restore the River, while at the same 
time avoiding those very conflicts over water rights between 
private water users and Federal agencies. As Charlotte 
explained, the Rio Grande Compact mandates that water be 
delivered through this area every year.
    We request that you give favorable consideration to S. 
1467, and I thank you most sincerely for the opportunity to 
appear before you today.
    [The prepared Statement of Ms. Booth Doyle follows:]

        Prepared Statement of Kate Booth Doyle, San Luis Valley 
                      Ecosystem Council, Colorado

    Mr. Chairman and members of the Committee, my name is Kate 
Booth Doyle. I am a member of the San Luis Valley Ecosystem 
Council, and have been actively involved in the development of 
the Outstanding Natural Area Legislation for many years. I am 
also a landowner along the Rio Grande in the area to be 
encompassed by the Outstanding Natural Area. I wish to first 
explain that the San Luis Valley Ecosystem Council is an 
umbrella group of citizens concerned about the environment and 
is active in other nationally recognized groups such as the 
Sierra Club, the Wilderness Society, the National Wildlife 
Federation, Ducks Unlimited and Trout Unlimited. We work 
together under the banner of the Ecosystem Council on issues of 
specific concern to our beloved San Luis Valley.
    All of the citizens of the Valley are very proud of their 
ability to work together on issues of common concern. Although 
you may find it surprising, the members of the environmental 
community, the members of agricultural community, the business 
men and women and the residents of the cities and towns and 
their elected officials have been able to work out cooperative 
win-win solutions to many problems they have faced over the 
years. We consider the federal land managers from the Bureau of 
Land Management, the Forest Service and the Fish and Wildlife 
Service to be our allies and friends, not our enemies, and we 
have attempted to establish a model where compromise among all 
of the interest groups is always the goal.
    Senator Campbell's Rio Grande Outstanding Natural Area 
Legislation before you today is just such an effort. It is the 
result of a significant amount of consultation and cooperation. 
It is supported not simply by the environmental community in 
the San Luis Valley, but also by the irrigation districts, the 
mutual ditch companies, the conservancy and conservation 
districts, the Cattlemen's Association, and many landowners 
along the affected reach of the River. In addition, we have 
enjoyed the cooperation of local federal officials, both from 
the Bureau of Land Management and the Fish and Wildlife 
Service. We all hope you will give us your support in this very 
positive and proactive effort.
    There is another reason that S. 1467 is an important 
initiative. After discussions had started about the 
opportunities to create an Outstanding Natural Area to better 
manage the river's riparian zone, we were informed that an 
endangered species, the Southwest Willow Flycatcher was 
believed to exist in the San Luis Valley. As a result we 
promptly began the process of developing a Habitat Conservation 
Plan to protect that species and the Outstanding Natural Area 
will be an important part of that Plan by giving us another 
reason to work together to restore the willow stands along the 
riparian fringe of the River. These willows are the primary 
habitat of the Southwest Willow Flycatcher.
    Our local community wishes to continue its successful 
practice of working together to take a proactive approach in 
solving environmental problems. In this case, the identified 
problem is the need to protect and restore the riparian zone of 
the Rio Grande between the Alamosa National Wildlife Refuge and 
the state line. The Outstanding Natural Area approach will 
provide significant private landowner input into the 
development of the management plan and will allow the federal 
land and private land to be managed cooperatively.
    I want to emphasize that there is nothing in the 
Legislation that can compel an unwilling landowner to 
participate. However, we believe that there will be 
overwhelming interest in participating in the plan as 
landowners begin to strive to meet their responsibilities to be 
good stewards.
    I should be clear that there are some who would prefer to 
see the Rio Grande designated as a Wild and Scenic River 
however, the environmental community in the Valley recognizes 
that to do so would create the potential of a federal reserve 
water right with all of the inherent conflicts and 
controversies with private water users. We do support the 
acquisition of a minimum stream flow by the State of Colorado 
under Colorado law, as the legislation recognizes. The beauty 
of this legislation is that it provides an opportunity to 
improve and restore the River, while at the same time avoiding 
those very conflicts over water rights between private water 
users and federal agencies. As Charlotte explained, the Rio 
Grande Compact mandates that water be delivered through this 
area every year. We request that you give favorable 
consideration to S. 1467 and I thank you most sincerely for the 
opportunity to appear before you.

    Senator Craig. Ms. Booth Doyle, thank you very much for 
that testimony.
    Commissioner, both you and Ms. Booth Doyle have spoken to 
the broad base of support that this legislation has. Who is 
opposed to it?
    Ms. Bobicki. To my knowledge, I do not--there is no one 
because the private landowners are voluntarily taking part in 
this, and the BLM is wanting to work with this. So I think it 
is something that is a win-win-win situation.
    Senator Craig. And how does this encumber, or could it 
encumber private land ownership?
    Ms. Bobicki. It is strictly voluntary, so there should be 
no takings, and there should be no conflict at all with the 
private landowners because it is voluntary.
    Senator Craig. Section 10(d) prohibits permitting or 
approving any new impoundments within the designated area. 
Would this include stock ponds for grazing allotments or such 
management tools as might be needed for grazing?
    Ms. Booth Doyle. Yes, sir. There has been some discussion 
regarding the management plan that would allow for the cattle 
to be able to get to water with--I forget what the call the 
little watering avenues that cattle go through. Mr. Campbell, I 
am sure you know it.
    Senator Campbell. A ditch.
    [Laughter.]
    Ms. Booth Doyle. No, sir, not a ditch. No, sir, not a 
ditch.
    [Laughter.]
    Ms. Booth Doyle. But basically allowing access where 
possible for cattle grazing. And at the present time, there is 
no cattle grazing on the private portion of the land involved. 
And BLM has a very minimal grazing on the BLM section because 
they are in the process of some restoration within the BLM.
    Senator Craig. Ms. Doyle, in your testimony you speak to an 
amazing collaborative effort and a broad-based group of 
stakeholders. If this is true, and in most instances where 
these kinds of things meet little opposition and I have found 
that to be the case, maybe we could export your approach to 
other areas of the West where considerable conflict still rages 
over new designations for land use or land management.
    Ms. Booth Doyle. Thank you.
    Senator Craig. But I congratulate both of you on that kind 
of effort. I think that when we do reach out to all groups 
involved, and allow them to have an effective say in the 
shaping of this kind of an approach, then we work well 
together.
    The only problem that you might have with Senator Campbell 
and I teaming up together to do something is that we did that 
in the late 1980's on an issue that is still in question.
    [Laughter.]
    Senator Craig. I will not mention its name. It is still in 
conflict out in that great State of yours. We were able to pass 
the legislation, but never to resolve the issue. It just shows 
how powerful members of the Congress are. We past it, Ben 
reminds me, twice into law, and yet I do not think any dirt has 
been moved. Has it?
    Senator Campbell. Oh, yes, they are now.
    Senator Craig. Oh, they are now. Okay.
    Senator Campbell. Yes.
    Senator Craig. All right.
    Senator Campbell. The Senator is speaking about the Animas 
La Plata project over by Durango that we worked on together for 
15 years.
    Senator Craig. Yes.
    Ms. Booth Doyle. Oh, wow.
    Senator Campbell. Yes.
    Senator Craig. Let me turn to my colleague for any 
questions he might have.
    Senator Campbell. Thank you, Mr. Chairman. I am sure you 
would agree that it would be nice if most of the bills dealing 
with the public lands that you have introduced or that I have 
introduced could be this nice. But it certainly says something 
to the local people's ability to work together, because they 
really brought it to the table pretty much done.
    While you were testifying, Charlotte and Kate, I was 
looking at your map and I was showing the chairman your map and 
pointing out to him some of the very, very famous places that 
we are proud of out there, such as----
    Senator Craig. We were still listening----
    Senator Campbell [continuing]. Where Manassas is, 
commissioner, but I was giving this moving geographic analysis.
    Senator Craig. We do a few different things at the same 
time.
    Senator Campbell. That is right. We have to.
    [Laughter.]
    Senator Campbell. I showed him where Manassas was, where 
the home of Jack Dempsey was. And he is certainly an 
afficionado of the West as I am, and I had to show him where 
Wolf Creek Pass was because he was reminiscing on the C.W. 
McCall song ``Wolf Creek Pass,'' although I still cannot figure 
out how C.W. McCall got that tunnel on the wrong side of the 
pass if you listen to the words of that song.
    [Laughter.]
    Senator Campbell. And Creede, where Bat Masterson was 
reportedly once the sheriff and where the killer of Jesse 
James, in turn, was killed. So there are some very, very famous 
places within this boundary of the Big Valley.
    And I would hope that someday if you have the chance, you 
could visit it.
    Senator Craig. Not in the wintertime.
    Senator Campbell. No, not in the winter.
    [Laughter.]
    Senator Craig. It tends to get a bit chilly up there.
    Ms. Bobicki. It is just cool sunshine. It is not cold.
    [Laughter.]
    Senator Craig. Just cool, just cool, all right.
    Senator Campbell. Coming from Idaho, you know what 20 below 
is like.
    Senator Craig. Oh, yes.
    [Laughter.]
    Senator Campbell. All right. Let me just ask a couple of 
questions. You heard the BLM testify. What was the local 
community's intent on calling it a ``commission'' rather than 
something else like an advisory council, as the BLM has 
recommended?
    Ms. Bobicki. I think that the word ``commission'' implies 
maybe a bigger commitment and stronger responsibility for their 
duties. It is just the implication of the word ``commission.''
    Senator Campbell. Yes. As I understand it from the BLM, 
``commission'' somehow implies that they would have the 
decision-making that could complicate things for the BLM. So 
would that--they did say that that was not a big issue, but it 
is an issue. And so how locked in are you that you call it a 
``commission''? If there is some other word that is agreeable 
to the BLM and you, would you be willing to deal with that?
    Ms. Bobicki. Oh, yes.
    Senator Campbell. Okay.
    Ms. Booth Doyle. If I may say a word about that also, Mr. 
Campbell, that in the past, already in this particular portion, 
the corridor, the Rio Grande Advisory Council was put together 
to garner support for protection of this area with the BLM and 
private land owners. So I do not think that there would be an 
objection----
    Senator Campbell. So there already is an advisory council 
that helped work on this.
    Ms. Booth Doyle. Yes, sir. It is dormant right now, but 
this has already been in place.
    Senator Campbell. And another question they had was calling 
it the ``Outstanding Natural Area,'' and you heard me ask him 
about how they define different topographical areas to 
designate, park, monument and so on. Would that be a major 
issue, if that was called--I do not know--Rio Grande Natural 
Area or something else, something-else kind of area?
    Ms. Bobicki. No, sir. That is not----
    Senator Campbell. Okay.
    Ms. Bobicki. What it is called would not be an issue.
    Senator Campbell. Okay. Well, great. Well, then we will 
look forward to working with you and with the BLM, too. And 
hopefully, this is a kind of a bill that we will be able to get 
through without too much trouble. We are only going to be in 
probably until this Saturday or Sunday, so it will not be this 
year, but next year I look forward to starting up on it again 
in January when we come back in.
    Ms. Bobicki. Thank you.
    Ms. Booth Doyle. Thank you.
    Senator Campbell. Thank you, Mr. Chairman.
    Senator Craig. Well, to the panelists, let me thank you for 
traveling out for the purpose of testimony on this legislation. 
I will work closely with your Senator to see if we cannot 
resolve any conflicts that might exist and move the legislation 
on.
    Thank you very much.
    Ms. Bobicki. Thank you for your interest.
    Senator Craig. We will hold the committee record open for 
how long for additional----
    Staff. Ten days.
    Senator Craig. Ten days for any additional information that 
we would want to put in the files in relation to these pieces 
of legislation.
    With that, the subcommittee will stand adjourned.
    [Whereupon, at 3:38 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

Statement of Don Ayres to Senator Christopher S. Bond (MO) regarding S. 
1167, The Mark Twain National Forest Resurvey and Boundary Readjustment 
                              Act of 2003

    I am a landowner in Stone County, Missouri who, along with many 
other landowners in Stone and Barry counties, has been affected by the 
boundary dispute with the U.S. Forest Service and the Army Corps on 
Engineers. A new survey was commissioned by the U.S. Forest Service 
that had the effect of changing the historical boundary markers that 
had been used for generations. In this new survey, I lost a strip of 
property approximately 30 feet wide including, among other things, my 
driveway, one-half of my garage and my entire 20' x 30' storage shed.
    This inequity was addressed by your introduction of S. 1167 on June 
2, 2003. My wife and I strongly urge Congress to pass this legislation 
and give the affected landowners relief from this boundary dispute.
    This dispute has adversely affected me, both personally and 
professionally, in several ways, as follows:
    1. Foremost is the uncertainty, aggravation, and threat of 
financial loss that this presents. I am faced with having to purchase 
what is, injustice, already my own improved land. I originally 
purchased this property in good faith, relying on a survey that I (and 
the surveyor) had every right to believe was accurate and correct. It 
has taken a considerable amount of my time and attention to try and 
find, and follow-up on, a way to resolve this problem in a fair and 
equitable way. You and your staff have provided such a vehicle with 
your proposed S. 1167.
    2. I have had my property listed for sale for the last two years. 
The listing has had to contain a warning to any potential buyer that 
the legal ownership of the affected parcel and improvements is in 
dispute. If I am lucky enough to find a buyer not put off by this 
situation, I would have to repurchase this parcel from the National 
Forest at current market price (again) in order to legally convey it to 
a buyer. I know you agree that such a solution would be terribly 
unfair.
    3. As a former active Realtor, I was in the position of having to 
place such a cautionary contingency in every listing for sale of 
property with a similar problem--and there were many. It is very 
difficult to sell a piece of property when the potential buyer is 
looking at a dispute with a large Federal agency (USFS). In at least 
one instance I know of, a listing was withdrawn because of the 
uncertainty of the dispute.
    4. Finally, this is simply an inherently unfair situation that 
deserves Congressional intervention.
    I would like to express my appreciation for your, and Congressman 
Blunt's efforts in introducing legislation to remedy this unfair 
situation.
                                 ______
                                 
       Statement of James Doyle, General Partner, Environmental 
                         Land Technology, Ltd.

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to appear before you today to testify on behalf of S. 1209, 
a bill to provide for the acquisition of property in Washington County, 
Utah, for implementation of a desert tortoise habitat conservation 
plan. As a resident of Idaho, I would like to extend my appreciation 
for the leadership of Chairman Craig and for the support and hard work 
of his capable staff. I would also like to thank Senator Bennett and 
his staff for their support of S. 1209, as well as Senators Hatch, Kyl, 
and other members of the Subcommittee. I am also grateful for the work 
of Chairman Domenici and his staff and for the cooperation of Senator 
Bingaman and others.
    My name is James Doyle. I am a resident of Sun Valley, Idaho. 
Through my family's limited partnership known as Environmental Land 
Technology, Ltd. (ELT), a Utah limited partnership, I own the largest 
parcel of private property located within the Red Cliffs Reserve, which 
is part of the Washington County Habitat Conservation Plan, established 
to preserve critical habitat for the desert tortoise in southern Utah. 
It is in connection with my property in Utah that I appear before you 
today.
    Simply stated, S. 1209 is what is commonly referred to as a 
legislative taking or legislative condemnation bill. This legislation 
is a measure of last resort. It is a measure appropriately reserved for 
enactment in only the most extreme cases. I believe, for reasons which 
I would like to discuss with you today, that this is such a case.
    S. 1209 provides a fair resolution to what has been a costly and 
protracted process which, absent this legislation, will not be resolved 
by itself. It is a resolution to a process that the government 
originally estimated would take no more than one year to complete. That 
one year has now stretched to fourteen. This protracted process has 
cost me my business. To cover costs of holding the property and getting 
the government to meet its obligations, I have had to sell my business 
assets, including my airplane and my office building in St. George, 
Utah. I have also had to sell my home in St. George and my family home 
in Idaho. Ironically, the Department of the Interior has from the 
outset characterized the acquisition of my land in Utah as a high 
priority acquisition, but the Department has yet to include the 
necessary funding to complete the acquisition in any of its budget 
requests. Now, creditors have started foreclosure on my land. I have a 
signed forbearance agreement which suspends the foreclosure activities 
pending the successful completion of this legislation. It is for these 
reasons that the passage of this legislation is urgently needed.
    Upon enactment, S. 1209 will immediately vest all of my rights in 
my Washington County property in the United States government. 
Thereafter, the Department of the Interior and I will have 90 days to 
reach a negotiated agreement on fair compensation for this land. If we 
are unable to reach an agreement, the Secretary of the Interior is 
required to initiate a proceeding in the Federal District Court for the 
District of Utah for a judicial determination of just compensation.
    Whether or not the compensation is determined through negotiations 
or by the Federal Court, this bill provides a choice of payments in 
cash, credits in a surplus property account that can be used to bid on 
surplus U.S. property, or through intra and interstate land exchanges 
as originally contemplated in the HCP agreement. These provisions, for 
which there is congressional precedence, are included to afford greater 
payment flexibility than a cash outlay only. S. 1209 also provides an 
up-front payment in the amount of $15 million which will enable me to 
forestall forfeiture of any more of my property to creditors. This 
amount is well below all of the valuation estimates of my property and 
will be credited against final payment.
    This legislation does not address the value of the land. It is not 
a legislative end run around the government's appraisal process. On the 
contrary, this legislation allows for the determination of fair market 
value according to the standards set forth in the Uniform Appraisal 
Standards for Federal Land Acquisitions prepared by the Department of 
Justice and the Uniform Standards of Professional Appraisal Practice 
(USPAP). Absent a negotiated settlement, the courts will decide the 
value of the land through this appraisal process and this legislation 
does not, in any way, legislate a value to the land.
    I believe it is important to draw a distinction between the 
determination of economic value for property within a habitat 
conservation area and the biological value of that property. In other 
words, the question about whether the government should pay a certain 
price to preserve a critical habitat is very different from the 
determination of fair market value of that property. Fair market value, 
highest and best use, is determined pursuant to established law, 
including section 309(f) of the Omnibus Parks and Public Lands 
Management Act of 1996 (Public Law 104-333), and generally accepted 
appraisal standards. On the other hand, the value of property as 
critical habitat is far more illusive and rooted more in public policy 
than appraisal standards.
    In recent years, there has been considerable controversy 
surrounding certain land purchases by the Department of the Interior. 
Critics have argued that the government has paid too much for the land 
it has acquired. Admittedly, appraising land is not a fine science. 
There are, however, safeguards which protect the public. One such 
safeguard is included in this legislation which provides for a judicial 
determination of value if an agreement cannot be reached with the 
Department of the Interior.
    Since 1990, when the desert tortoise was first listed as endangered 
and the time when the land that now lies within the Red Cliffs Reserve 
was identified as critical habitat, every attempt to resolve this 
matter has been unsuccessful. I have exhausted both my personal and 
company resources trying to obtain fair compensation for my property. I 
have run out of money and can no longer hold this land. After reviewing 
alternatives with officials in the Department of the Interior and with 
members of the Utah delegation, and taking into account pending 
foreclosure action, we have concluded that this legislation is the only 
viable option.
    It is important to mention that legislation similar to S. 1209 has 
twice passed the House of Representatives in the 106th and 107th 
Congresses. I am grateful for the cooperation and support of members in 
both the House and the Senate.
    I would like to briefly summarize the events and circumstances 
which have led me to this position. Time will not permit a detailed 
review, but I would be pleased to provide whatever additional 
background information you may desire.
    I am by profession a land developer. I have developed lands 
throughout the United States and in several foreign countries. In 1981, 
I began to focus on potential development property north of the City of 
St. George, Utah, as part of a logical growth pattern for the City. 
This property is one of the last remaining prime developable properties 
in the Southwest. The State of Utah owned the land, which it had 
acquired as part of its in lieu selection and which was administered by 
the State and Institutional Trust Lands Administration on behalf of the 
State school system. Over the next few years, 2,440 acres of this land 
was approved for a predevelopment lease, and in 1985, my business 
acquired the lease for this property. Thereafter, I worked closely with 
the Washington County Commission, as well as the cities of St. George 
and Washington, in preparation for the development of what was intended 
to be the largest single real estate project ever developed in that 
part of the State. We regularly met with the government officials, 
financial backers, and engineering firms and prepared initial 
engineering studies, proposals for transportation quarters, multiple 
golf course layouts, bubble diagrams for the various development units, 
and a major transportation artery that would traverse the development 
property. All of these efforts are fully documented and can be easily 
verified by public records.
    My company performed considerable onsite work in surveying and 
staking the roadways, golf courses, and developments. Utility layouts 
for water, sewer, and power were established. Extensive rights of way 
were negotiated and agreements were reached with the City of St. George 
in anticipation of annexation by the City of various parts of the 
project and the location of a debris basin and water storage tanks on 
the property. From 1985 through 1989, I also spent considerable time 
and money in converting the development lease into a fee title and 
obtaining additional water rights for the property. I also applied for 
an additional 9,560 acres of State lands which was being considered as 
part of the master plan development project. By the end of 1989, I had 
lined up financial partners and was anticipating a ground breaking for 
the initial phase of the project in the summer of 1990.
    Then, in March 1990, the U.S. Fish and Wildlife Service listed the 
desert tortoise as an endangered species. Initially, neither I nor the 
local city and county officials understood the impact of this decision. 
We were informed that the land could not be developed until such time 
as the Fish and Wildlife Service completed a considerable biological 
assessment and field work necessary to determine the critical habitat 
for the tortoise. In effect, a large portion of the County was placed 
off limits to development until the government could determine which 
parts of the land were needed to protect the tortoise.
    Although all on-site work had ceased with the listing of the desert 
tortoise, and because no one was certain which lands would be needed, 
over the next few years we continued forward with our planning and work 
under the assumption that at some point we would be allowed to proceed 
with our development subject to some reasonable restrictions for 
protecting the tortoise. By 1994, it became apparent that the Federal 
government intended to designate a 60,000-acre tract of land 
immediately north of St. George, including our 2,440 acres, as the 
desert tortoise preserve. In 1996, the Habitat Conservation Plan went 
into effect, the Bureau of Land Management created the Red Cliff 
Reserve, and a fence was placed around my land, further enforcing the 
on-site work prohibition that went into effect in 1990. The HCP also 
destroyed the option agreement I had signed for the additional 9,560 
acres.
    As soon as it was clear that the Federal government intended to 
prohibit the development of my land, officials with the Department of 
the Interior assured me that a quick equitable solution could be 
reached. They represented that the process of acquiring my land would 
take no longer than a year. The time to complete the acquisition was 
very important because conventional financing needed to hold the 
property was not available. Even with a high loan-to-value ratio, 
bankers were unwilling to lend money against the land without a clear 
payoff schedule, due to the fact there was no consistency or certainty 
in payment of funds from the Federal government upon which banks could 
rely. Today, virtually all of my net worth is tied to this land. I have 
no other income-producing property, investments, or businesses. To 
simply sustain this effort to get the government to discharge its 
obligation to me, I have had to borrow substantial amounts of money, 
sometimes at interest rates as high as 100 percent. Representations 
were made that Federal money would be available to help defer the 
acquisition costs. Unfortunately, those representations never 
materialized and I have since run into one dead end after another, 
turning to Congress after having pursued and exhausted all of the other 
known methods by which to receive compensation for my land save 
litigation against the federal government and Washington County.
    The other private land owners within the HCP boundaries and I 
originally proposed that Section 10 permits be issued to allow us to 
develop our land consistent with a plan to protect the tortoise 
habitat. The HCP Steering Committee concurred and voted favorably on 
that recommendation. However, the Federal government did not approve 
this approach and determined all of the land within the HCP would be 
off limits to development. BLM proposed instead an interstate land 
exchange involving an exchange of all the private lands within the 
Reserve for lands of comparable value in southern Nevada. Although we 
pursued this effort for more than two years, it ultimately failed for 
various reasons unrelated to the private land owners in Utah.
    Within the boundaries of the 60,000 acres of the Reserve, there 
were approximately 21 private and non-federal government land owners. 
The use of this large tract of land varied from grazing to development. 
My property was identified by the Department as biologically 
significant for the gene pool exchange among different populations of 
the tortoise, and as such was originally slated as a high priority 
acquisition among the land holdings within the HCP. Despite this 
priority designation, the Department of the Interior nevertheless 
proceeded to acquire, by purchase or exchange, the lands of all the 
other private land owners. I was told that the rationale behind this 
acquisition sequence was the government's desire to first acquire the 
smaller holdings. Ironically, many of these smaller holdings were held 
by interests with far greater staying power than I. The Department of 
the Interior has spent nearly $50 million in direct purchases, cash 
equalization payments, and costs. To date, the government has acquired 
approximately one third of my land.
    After the Nevada exchange fell through, I was encouraged by BLM to 
enter into an Assembled Land Exchange Agreement with BLM whereby we 
would choose comparable lands within the State of Utah to be exchanged 
for my lands. I signed the Agreement and spent nearly a year looking 
for comparable lands within the State. By late 1997 and early 1998, it 
appeared we were moving toward possible exchanges.
    In 1998, however, I had reached a point where I could no longer 
hold the land without receiving some compensation to pay off creditors. 
Under protest, I agreed to a series of sales in which approximately 
$5.3 million was paid by the BLM in exchange for 349 acres of my land. 
This was done based on a flawed appraisal promoting a clear downward 
bias as to value, which had been provided by appraisers recommended by 
BLM. My creditors were demanding payment, and the government knew it. 
At closing, the Federal officials, knowing of my financial situation, 
reduced the amount on which we had previously agreed. Reluctantly, I 
agreed to a closing where over $10 million worth of my real estate was 
sold to the Federal government for less than half of its value. Of the 
proceeds that I received, I had to pay 30% off the top to the State of 
Utah, based on my original purchase agreement for the acquisition of 
the state trust lands. Most of the rest went to creditors who had lent 
me money to cover development and holding costs.
    On another occasion, the BLM identified a 505-acre parcel near 
Leeds, Utah for an exchange. I borrowed a substantial amount of money 
and proceeded to resolve several closing issues, which included 
clearing the property with the Washington County Water Conservancy 
District, engineering evaluations of the property, purchasing water 
rights, and other related work. Then, after ten months of effort, and 
shortly before the planned closing date, I received a letter from BLM 
which indicated that for archeological reasons the 505 acres was being 
withdrawn from consideration.
    Discouraged and heavily in debt, I began to look for comparable 
lands outside of Washington County for possible intrastate land 
exchanges. In 1996, President Clinton created the Grand Staircase 
National Monument. Though it was not anticipated at the time of its 
creation, by 1998, the Monument had a significant adverse impact on my 
ability to complete an intrastate exchange. Because lands within the 
designated area of the Grand Staircase included both Federal and non-
federal land, the Department of the Interior and the State of Utah 
commenced a massive exchange to consolidate Federal holdings within the 
Monument.
    In September 1998, the then-Acting Director of the Utah office of 
BLM concluded that because of the large Federal/State exchange for the 
Monument, there were no longer sufficient comparable lands within the 
State of Utah to complete an intrastate exchange for my lands within 
the HCP. At this time, the Acting Director recommended a direct 
purchase by the Department of the Interior of my land as the most 
feasible approach to acquisition. Without the possibility of an 
intrastate exchange, my only remaining options were a direct Federal 
purchase, congressionally approved interstate land exchanges or 
legislative condemnation.
    Since 1998, I have unsuccessfully pursued both interstate land 
exchanges and a small intrastate exchange. I have traveled to various 
sites around the country from California to Florida looking for 
interstate exchange sites that might meet with Congressional approval. 
I have met with literally dozens of BLM, Forest Service. county, and 
municipal officials in the States of Idaho, Utah, Nevada, New Mexico, 
and Arizona.
    Because of the difficulties inherent in an interstate land 
exchange, officials at the Department of the Interior continued to 
encourage a direct purchase. Based on preliminary value estimates, BLM 
requested $30 million in the FY2000 budget cycle for the purchase of 
land within the Washington County HCP. In discussions with Department 
officials, I understood that most or all this money was to be made 
available to acquire a significant portion of my lands.
    The FY2000 monies were initiated by and included in the BLM land 
acquisition account and, along with the entire BLM budget request, were 
forwarded to the Office of Management and Budget for approval. Even 
though the land within the Red Cliffs Reserve is acquired and owned by 
BLM, and BLM officials had been involved with all the prior 
acquisitions within the Reserve, OMB arbitrarily redirected BLM's 
request to the land acquisition account of the Fish and Wildlife 
Service Cooperative Endangered Species Conservation Fund. Presumably 
OMB transferred the funds to the Fish and Wildlife Service account 
because it involved the purchase of lands within an existing HCP. Not 
surprisingly, the Fish and Wildlife Service felt no compelling interest 
to purchase property for BLM. This bifurcation of responsibility within 
the Department effectively left me in a bureaucratic ``no-man's-land.'' 
I received none of the money originally requested by BLM for the 
partial acquisition of my land.
    My efforts and the efforts of others to resolve this situation have 
been totally unavailing. The government has repeatedly acknowledged its 
obligation to acquire my land, and has characterized the acquisition of 
my land as a high priority. However, the Department has failed to 
request sufficient monies for this acquisition in any budget request.
    I have reluctantly concluded that, although this property has been 
designated as a high priority acquisition, it is clear there is no real 
incentive for the Department of the Interior to timely complete this 
transaction. The Federal government has effectively ``owned'' my land 
for the last fourteen years. The land is fenced off and I have no 
access to it. Without having to actually purchase it, the Department of 
the Interior enjoys all of the benefits of ownership. Still, I have had 
to bear all of the holding costs, including payment of taxes and the 
considerable cost of getting the government to discharge its 
obligation.
    There have been promises upon unfulfilled promises from the 
Department of the Interior that a solution was just yet around the next 
corner. But just as I reach that illusive corner, I discover it leads 
to yet another dead end.
    S. 1209 is now the only feasible solution to this problem. I have 
already forfeited a portion of my interest in the property and I cannot 
afford to sustain this costly effort any longer. I respectfully urge 
the Committee to support S. 1209. I appreciate this opportunity to 
appear before you, and I am ready to answer any questions or provide 
any information that you require for your consideration of this bill.

                                 ______
                                 
            Statement of the Washington County Commission, 
                        Washington County, Utah

    The Washington County Commission wishes to thank the Subcommittee 
for holding this hearing on S. 1209, a bill to provide for the 
acquisition of property in Washington County, Utah, for implementation 
of a desert tortoise habitat conservation plan, introduced by Senator 
Bennett and cosponsored by Senator Hatch, that will finally acquire 
critical private lands within the Red Cliffs Reserve. We offer our 
unconditional support for S. 1209 and urge the Committee to pass this 
legislation to insure that our efforts to create the Red Cliffs Reserve 
in Washington County are fulfilled. We have also attached a copy of a 
letter from the Washington County Commission to Secretary Norton and to 
the members of the Utah delegation, dated June 23, 2003, and 
respectfully request that it be included as part of our testimony.
    The Washington County Commission has favorably dealt with the issue 
of endangered species in Washington County, and in particular, the 
desert tortoise, by working with the Federal Government and the Utah 
State Institutional Trust Lands Administration for many years, and has 
established a Habitat Conservation Plan that we have been told by many 
was a model for others to follow. Notwithstanding all of the good 
things that have happened with the plan, one thing that we continue to 
be sorely disappointed with is the failure to timely accomplish one of 
the major objectives of the Habitat Conservation Plan, which is 
acquisition of the land located in the Plan. The HCP agreement, which 
was signed by the County, the Bureau of Land Management, and the Fish 
and Wildlife Service, calls for the acquisition of all private lands 
within the Reserve. This legislation completes the acquisition of the 
last remaining private property which, as a result of federal action, 
has been left undevelopable for 14 years.
    For many years there have been attempts made to acquire a very key 
property in the heart of the HCP owned by Environmental Land 
Technology, Ltd., Rocky Mountain Ventures, and James Doyle. Smaller 
portions of this property have been acquired; however, the main portion 
of the property (which is also the heart of the main area of the 
preserve) has not.
    When we contracted to spend literally millions of local tax dollars 
on this Plan, together with effectively retiring over 60,000 prime 
acres from development, the property owners and the State School Trust 
were promised they would be fairly compensated, either in the form of 
land trades or cash buyouts. When this solution was first undertaken, 
we knew that this process would take some time; however, we believe 
that the time it has taken to finish the job has simply gone on too 
long. The property referred to in Senator Bennett's bill would have 
otherwise been developed as prime residential golf course development 
real estate. It always has been immediately adjacent to the Green 
Springs Golf Course (which is owned by the City of Washington) and 
related prime development grounds.
                                 ______
                                 
                     Bend Metro Park & Recreation District,
                                       Bend, OR, November 17, 2003.
Senator Ron Wyden,
Hart Senate Office Building, Washington, DC.
Senator Gordon Smith,
Russell Office Building, Washington, DC.
Congressman Greg Walden,
Longworth House Office Building, Washington DC.

Re: Senate Bill 1848, Energy and Natural Resources Committee Testimony

    Gentleman: On behalf of the Board of the Bend Metro Park and 
Recreation District, please enter the following testimony into the 
record of the Energy and Natural Resources Committee.
    The Board of Bend Metro Park and Recreation District is in support 
of Senate Bill 1848, directing the Secretary of Agriculture to offer to 
the Bend Metro Park and Recreation District approximately 170 acres of 
land identified as Tract A, Bend Pine Nursery. We believe that 
consideration in the amount of $3,505,676 is a fair price, allowing the 
Park District to move expeditiously to make this property available to 
the citizens of Bend.
    It is my understanding that the original bill, signed in December 
2001, had a very simple objective of transferring the Pine Nursery 
property to the Bend Metro Park and Recreation District for use as a 
public park. Up until now this process has been controlled by the U.S. 
Forest Service. For whatever reason, the Forest Service did not offer 
the property to the District until July 17, 2003. By that time the 
value of the property had risen from a Forest Service estimate of 
$3,000,000 to $5,800,000, an increase of almost 100 percent, taking the 
property out of reach for the Park District. It is greatly appreciated 
that the Central Oregon delegation has moved forward to resolve this 
simple but very important issue.
    The Bend Pine Nursery will be used as a Regional Park serving 
people within the boundary of the Park District, City of Bend, and 
surrounding communities. The preliminary site development plan calls 
for 22 sports fields, trails, open space, disc golf, and a neighborhood 
park equipped with playgrounds, skate facilities, and picnic shelters. 
The park will one day be one of the finest municipal recreation 
facilities in Oregon.
    The Park District also understands that there is a provision in the 
bill that will require a deed restriction, allowing the property to 
only be used and developed for the purpose of providing recreational 
opportunities. The Park District's full intent is to use the property 
for recreation purposed, therefore the deed restriction is welcome.
    Even though we are not involved in governing the Bend LaPine School 
District, we fully support the transfer of the 15-acre elementary 
school site to the school district for no consideration. The Pine 
Nursery master plan, prepared by the Park District, has always 
considered an elementary school to be located on this property as it 
will seamlessly be integrated into the grander concept of a community 
recreation and education facility.
    It has been a pleasure working in a non-partisan environment to 
bring together the desires of this community. Senators, on behalf of 
the Board, I appreciate the efforts that both of you as well as 
Congressman Walden have given toward this important community issue. 
Should you need additional information from me about the intent of the 
Park District to use this property, please don't hesitate to call.
            Sincerely,
                                             Don P. Horton,
                                                Executive Director.


</pre></body></html>
